                          Office of Inspector General
                         Corporation for National and
                                  Community Service




FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA)

                           INDEPENDENT EVALUATION FOR FY 2013



                                                       OIG REPORT 14-03




                                                     1201 New York Ave, NW
                                                                  Suite 830
                                                      Washington, DC 20525

                                                                (202) 606-9390




   This report was issued to Corporation management on December 16, 2013.
   Under the laws and regulations governing audit follow-up, the Corporation is to
   make final management decisions on the report’s findings and
   recommendations no later than June 16, 2014, and complete its corrective
   actions by December 15, 2014. Consequently, the reported findings do not
   necessarily represent the final resolution of the issues presented.
                                      December 16, 2013


TO:           Kim Mansaray
              Chief Operating Officer (Acting)


FROM:         Stuart Axenfeld
              Assistant Inspector General Audit


SUBJECT:      Federal Information Security Management Act (FISMA)
              Independent Evaluation for FY 2013 (OIG Report Number 14-03)


Attached is the final report on the Office of Inspector General’s (OIG) Report 14-03 “FY13
Federal Information Security Management Act (FISMA) Evaluation for the Corporation for
National and Community Service.” This evaluation was performed by Kearney & Company, P.C.
in accordance with the Quality Standards for Inspection and Evaluation promulgated by the
Council of Inspectors General on Integrity and Efficiency (CIGIE).

Kearney & Company, P.C. has determined that the Corporation has limited assurance that its
Information Security Program is compliant with the FISMA legislation, applicable Office of
Management and Budget (OMB) guidance, and National Institute of Standards and Technology
(NIST) Special Publications (SP). Their evaluation identified 30 instances of noncompliance
with OMB guidance and NIST SPs. These areas of noncompliance are grouped into six
findings, resulting in nine recommendations to strengthen the Corporation’s Information Security
Program.

Should you have any questions about this report, please contact Guy Hadsall, Chief Technology
Officer/OIG at 202-606-9375.

Attachment

cc:
Philip Clark, Chief Information Officer
Lloyd Samples, Chief Information Security Officer




                   1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                      202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov
 FY 2013 Federal Information Security
     Management Act Evaluation
                                  for the

Corporation for National and Community
                Service

RQ#: OIG1302130001, Amendment CNSIG-13-Q-0002


                          December 13, 2013




                                   Point of Contact:
                               Tyler Harding, Principal
                             1701 Duke Street, Suite 500
                                Alexandria, VA 22314
                         703-931-5600, 703-931-3655 (fax)
                           tyler.harding@kearneyco.com
   Kearney & Company’s TIN is 54-1603527, DUNS is 18-657-6310, Cage Code is 1SJ14
                                                                                                            CNCS FY 2013 FISMA Evaluation
                                                                                                                   Final Report for FY 2013



                                                     TABLE OF CONTENTS
                                                                                                                                      Page #

1.      BACKGROUND ................................................................................................................... 3
     1.1 Overview .......................................................................................................................... 3
     1.2 FISMA.............................................................................................................................. 3
     1.3 NIST Security Standards and Guidelines ......................................................................... 4
     1.4 DHS’s FISMA Responsibilities ....................................................................................... 5
     1.5 Scope ................................................................................................................................ 6

2.      SUMMARY RESULTS ........................................................................................................ 6

3.      FINDINGS ............................................................................................................................. 8
     3.1 ISCM Strategy .................................................................................................................. 8
     3.2 Risk Management ........................................................................................................... 11
     3.3 Security Awareness and Training .................................................................................. 15
     3.4 Evaluation of Agency POA&M Process ........................................................................ 18
     3.5 Evaluation of Contractor Oversight ............................................................................... 19
     3.6 Identity and Access Management Controls .................................................................... 22

APPENDIX A: MANAGEMENT’S RESPONSE .................................................................... 25

APPENDIX B: KEARNEY’S AND OIG’S ANALYSIS OF PLANNED ACTIONS ........... 37

APPENDIX C: RESULTS FROM NCCC AND STATE FIELD OFFICE
  ASSESSMENTS .................................................................................................................... 53

APPENDIX D: ABBREVIATIONS AND ACRONYMS ........................................................ 54

APPENDIX E: REFERENCED DOCUMENTS ..................................................................... 55
                                                                         CNCS FY 2013 FISMA Evaluation
                                                                                Final Report for FY 2013



December 13, 2013



Honorable Deborah J. Jeffrey
Inspector General
Office of Inspector General
Corporation for National and Community Service
1201 New York Avenue, NW, Suite 830
Washington, D.C. 20525


Dear Ms. Jeffrey:

This report presents the results of Kearney & Company, P.C.’s (defined as “Kearney,” “we,” and
“our” in this report) independent evaluation of the Corporation for National and Community
Service’s (the Corporation) Information Security Program and practices. The Federal
Information Security Management Act of 2002 (FISMA) requires the Corporation to develop,
document, and implement an agency-wide Information Security Program to protect its
information and information systems, including those provided or managed by another agency,
contractor, or source. Additionally, FISMA requires the Corporation to undergo an annual
independent evaluation of its Information Security Program and practices, as well as an
assessment of its compliance with FISMA requirements. The Corporation’s Office of Inspector
General (OIG) contracted with Kearney to perform an independent fiscal year (FY) 2013 FISMA
evaluation of the Corporation’s information technology (IT) policies, procedures, and practices.
We are pleased to provide this FY 2013 FISMA Independent Evaluation Report, which details
the results of our review of the Corporation’s Information Security Program.

The objectives of the evaluation were to:

   •   Determine the efficiency and effectiveness of the Corporation’s IT policies, procedures,
       and practices
   •   Review a representative subset of the Corporation’s information systems
   •   Assess the Corporation’s compliance with FISMA and related information security
       policies, procedures, standards, and guidelines
   •   Evaluate personally identifiable information (PII) protection and physical controls at field
       office sites
   •   Prepare the Corporation’s responses to the Department of Homeland Security’s (DHS)
       FY 2013 Inspector General (IG) FISMA Reporting Metrics, dated November 30, 2012.

Kearney’s methodology for the FY 2013 FISMA evaluation included testing a subset of the
Corporation’s systems for compliance with selected controls covered by the National Institute of
Standards and Technology’s (NIST) Special Publication (SP) 800-53, Revision (Rev.) 3,
Recommended Security Controls for Federal Information Systems and Organizations. Our
evaluation methodology met the Quality Standards for Inspection and Evaluation, promulgated
by the Council of Inspectors General on Integrity and Efficiency (CIGIE), and included



                                                1
                                                                        CNCS FY 2013 FISMA Evaluation
                                                                               Final Report for FY 2013



inquiries, observations, and inspection of Corporation documents and records, as well as direct
testing of controls.

The Corporation’s Information Security Program incorporates security requirements required by
FISMA, and updates them as guidance changes. For example, the Corporation is currently
transitioning from NIST SP 800-53, Rev. 3 to NIST SP 800-53, Rev. 4, Security and Privacy
Controls for Federal Information Systems and Organizations, to increase assurance that security
controls have been adequately implemented and assessed. The Corporation is also continuing to
update its information security policies and procedures; oversee its primary technology
contractor, SRA International, Inc. (SRA), and other contracted services; and provide training in
proper protection of PII for field office personnel.

We conclude that the Corporation has limited assurance that its Information Security Program is
compliant with the FISMA legislation, applicable Office of Management and Budget (OMB)
guidance, and NIST SPs. Our testing identified 30 instances of noncompliance with OMB
guidance and NIST SPs, itemized in Appendix C: Responses to DHS’s FY 2013 IG FISMA
Reporting Metrics. These areas of noncompliance are grouped into six findings, and our report
includes nine recommendations to strengthen the Corporation’s Information Security Program.
Appendix A provides the Corporation’s response to the draft FISMA report.

In closing, we appreciate the courtesies extended to the Kearney FISMA Evaluation Team during
this engagement.

Sincerely,




Kearney & Company, P.C.
Alexandria, Virginia




                                               2
                                                                           CNCS FY 2013 FISMA Evaluation
                                                                                  Final Report for FY 2013



1.        BACKGROUND

1.1       Overview

In 1993, the Corporation was established to connect Americans of all ages and backgrounds with
opportunities to give back to their communities and their nation. Its mission is to improve lives,
strengthen communities, and foster civic engagement through service and volunteering. The
Corporation’s Board of Directors and Chief Executive Officer (CEO) are appointed by the
President and confirmed by the Senate. The CEO oversees the agency, which employs about
600 employees operating throughout the United States and its territories. The Board of Directors
sets broad policies and direction for the Corporation, and oversees actions taken by the CEO with
respect to standards, policies, procedures, programs, and initiatives, as are necessary to carry out
the mission of the Corporation.

1.2       FISMA

FISMA was enacted into law as Title III of the E-Government Act of 2002 (E-Gov) (Public Law
[P.L.] 107-347, December 17, 2002). Key requirements of FISMA include:

      •   The establishment of an agency-wide Information Security Program to provide
          information security for the information and information systems that support the
          operations and assets of the agency, including those provided or managed by another
          agency, contractor, or source
      •   An annual independent evaluation of the agency’s Information Security Program and
          practices
      •   Testing of the effectiveness of information security policies, procedures, and practices of
          a representative subset of the agency’s information systems.

FISMA outlines the information security management requirements for agencies, including the
requirement for an annual review and independent assessment by each agency’s IG. The statute
also requires minimum standards for agency systems. The annual assessments are intended to
assist agencies in developing strategies and best practices for improving information security.

In addition, FISMA requires Federal agencies to implement the following information security
practices:

      •   Periodic risk assessments
      •   Information security policies, procedures, standards, and guidelines
      •   Delegation of authority to the Chief Information Officer (CIO) to ensure the design and
          implementation of information security policies are consistent with OMB and NIST
          guidance
      •   Security awareness training programs
      •   Periodic testing and evaluation of the effectiveness of security policies, procedures, and
          practices, to be performed no less than annually
      •   Processes to manage remedial actions for addressing deficiencies
      •   Procedures for detecting, reporting, and responding to security incidents



                                                   3
                                                                                    CNCS FY 2013 FISMA Evaluation
                                                                                           Final Report for FY 2013



      •   Plans to ensure continuity of operations
      •   Annual reporting on the adequacy and effectiveness of the Information Security Program
          to OMB and Congress.

OMB is responsible for reporting to Congress a summary of the results of an agency’s
compliance with FISMA requirements. OMB also establishes executive policies with respect to
information security. Its principal written statement of Government policy regarding information
security is OMB Circular No. A-130, Management of Federal Information Resources, Appendix
III, Security of Federal Automated Information Resources, dated November 28, 2000, which
establishes a minimum set of controls to be included in Federal automated Information Security
Programs. In particular, OMB Circular A-130, Appendix III defines adequate security as
security commensurate with the risk and magnitude of the harm resulting from loss, misuse, or
unauthorized access to or modification of information. This includes assuring that systems and
applications used by the agency operate effectively and provide appropriate confidentiality,
integrity, and availability, through the use of cost-effective management, personnel, operational,
and technical controls.

Additionally, OMB has issued guidance related to information security with regard to Plans of
Actions and Milestones (POA&M) for addressing findings from security control assessments,
security impact analyses, and continuous monitoring activities. Per OMB Memorandum M-02-
01, Guidance for Preparing and Submitting Security Plans of Actions and Milestones, POA&Ms
provide a roadmap for ensuring continuous agency security improvement, and assisting agency
officials with prioritizing corrective action and resource allocation.

1.3       NIST Security Standards and Guidelines

FISMA requires NIST to establish minimum standards and guidelines for Federal information
systems, and further requires Federal agencies to comply with Federal Information Processing
Standards (FIPS) issued by NIST. These requirements cannot be waived. NIST also develops
and issues SPs as recommendations and guidance documents.

FIPS Publication (PUB) 200, Minimum Security Requirements for Federal Information and
Information Systems, mandates the use of NIST SP 800-53, Rev. 3 1, Recommended Security
Controls for Federal Information Systems and Organizations. NIST SP 800-53, Rev. 3 provides
guidelines for selecting and specifying security controls for information systems. The security
controls described in NIST SP 800-53 are organized into 18 functional “families” that fall into
three broad classes—technical, management, and operational 2—shown in Table 1 below.



1
  NIST released its fourth revision of the SP on April 30, 2013.
2
  According to NIST SP 800-53, management controls are the security controls for an information system that focus
on the management of risk and information system security. Operational controls are the security controls for an
information system that are primarily implemented and executed by people (as opposed to systems). Technical
controls are the security controls for an information system that are primarily implemented and executed by the
information system through mechanisms contained in the hardware, software, or firmware components of the
system.


                                                        4
                                                                        CNCS FY 2013 FISMA Evaluation
                                                                               Final Report for FY 2013



                              Table 1: Security Control Families

                  #    Security Control Family                  Control Class
                  1    Access Control                           Technical
                   2   Audit and Accountability                 Technical
                   3   Identification and Authentication        Technical
                   4   System and Communications Protection     Technical
                   5   Security Assessment and Authorization    Management
                   6   Planning                                 Management
                   7   Risk Assessment                          Management
                   8   System and Services Acquisition          Management
                   9   Program Management                       Management
                  10   Awareness and Training                   Operational
                  11   Configuration Management                 Operational
                  12   Contingency Planning                     Operational
                  13   Incident Response                        Operational
                  14   Maintenance                              Operational
                  15   Media Protection                         Operational
                  16   Physical and Environmental Protection    Operational
                  17   Personnel Security                       Operational
                  18   System and Information Integrity         Operational

Information systems are further categorized according to their importance to the agency’s
mission and the potential impact on the agency’s operations, assets, or individuals of a loss of
confidentiality, integrity, and availability of the information system and data (see FIPS PUB 199,
Standards for Security Categorization of Federal Information and Information Systems, and
NIST SP 800-60, Volume 1: Guide for Mapping Types of Information and Information Systems
to Security Categories). Of the Corporation’s 10 information systems and sub-systems, six have
a “moderate” security impact and four have a “low” security impact. Nine of the 10 information
systems are hosted and operated by other Government agencies or third party service providers.

1.4    DHS’s FISMA Responsibilities

Under the authority of OMB, DHS facilitates the annual reporting of the CIO Reporting Metrics,
Senior Agency Official for Privacy Reporting Metrics, and OIG Reporting Metrics to Congress,
utilizing an online tool called CyberScope. For OIGs to prepare their annual responses in
CyberScope, DHS provides instructions in the FY 2013 IG FISMA Reporting Metrics, and
requires each agency OIG to respond to 11 FISMA metric questions. Appendix B contains the
OIG’s responses for the Corporation.

Kearney’s evaluation of the effectiveness of the Corporation’s Information Security Program
focused on compliance with FISMA legislative requirements, applicable OMB and NIST
guidance, and the Corporation’s own information security policies, procedures, and practices.




                                                5
                                                                         CNCS FY 2013 FISMA Evaluation
                                                                                Final Report for FY 2013



1.5       Scope

This independent evaluation was conducted during the period of June through October 2013.
Our evaluation methodology met the Quality Standards for Inspection and Evaluation,
promulgated by CIGIE, including inquiries, observations, and inspection of Corporation
documents and records, as well as direct testing of controls. The FISMA evaluation included an
assessment of the following:

      •   Corporation Information Security Program activities
      •   Management oversight of contractor-managed systems, including the Corporation
          Network and My AmeriCorps Portal
      •   FY 2013 OMB/DHS Reporting Metrics
      •   Site visits to a Corporation State Office in Jackson, MS
      •   Site visits to two National Civilian Community Corps (NCCC) locations (Perry Point,
          MD and Vicksburg, MS).

2.        SUMMARY RESULTS

This section provides the conclusions of our research, analysis, and assessment of the
Corporation’s Information Security Program, policies, and practices. Authoritative policies,
standards, and guidance are cited where applicable. As shown in Table 2 below, Kearney
concluded that management attention is needed for seven of the 11 areas of security controls.

                            Table 2: Security Control Effectiveness

      2013 DHS IG FISMA Reporting Area                      Security Control Effectiveness
1. Continuous Monitoring Management                         Warrants Management Attention
2. Configuration Management                                   Demonstrates Effectiveness
3. Identity and Access Management                           Warrants Management Attention
4. Incident Response and Reporting                            Demonstrates Effectiveness
5. Risk Management                                          Warrants Management Attention
6. Security Training                                        Warrants Management Attention
7. POA&Ms                                                   Warrants Management Attention
8. Remote Access Management                                 Warrants Management Attention
9. Contingency Planning                                     Warrants Management Attention
10. Contractor Systems                                        Demonstrates Effectiveness
11. Security Capital Planning                                 Demonstrates Effectiveness

In some of these areas, the Corporation was actively working to address noted security
weaknesses and documenting planned activities in POA&Ms. Where the Corporation was
making sufficient progress, we did not report a separate finding; instead, we listed those areas in
Table 2 above and in Appendix B. Thus, our report focuses on significant unaddressed security
control deficiencies grouped into six findings, as listed below in order of significance:

      1. Lack of a formally documented and fully implemented Information Security Continuous
         Monitoring (ISCM) strategy


                                                6
                                                                       CNCS FY 2013 FISMA Evaluation
                                                                              Final Report for FY 2013



   2. Lack of formally documented and fully implemented Risk Management Framework
      (RMF)
   3. Lack of a fully implemented a Role-Based Information Security Training Program
   4. Improvements needed with POA&M reporting
   5. Improvements needed to ensure that contractors comply with the Corporation’s
      Information Security Program requirements
   6. Lack of two-factor authentication to the Corporation’s desktops, laptops, and corporate
      network.

Addressing these security control deficiencies will assist the Corporation’s ongoing efforts to
assure adequate security over its information resources.           Our report includes nine
recommendations to further strengthen the Corporation’s Information Security Program. At the
time of our evaluation, the Corporation had already taken steps toward strengthening controls in
some of these areas:

   1. Document and fully implement an ISCM strategy
   2. Document and fully implement a process for addressing risk at the organizational/mission
      and business process levels throughout the organization
   3. Clearly assign ownership and responsibilities for executing risk management processes at
      the business/program level (Tier 2)
   4. Ensure compliance with processes for monitoring security controls at the information
      system level, and obtain formal approval and necessary waivers for departures from
      corporate policy. Further, establish and communicate potential disciplinary actions for
      noncompliance with the Corporation’s security policies
   5. Implement role-based security training for all users with significant information security
      responsibilities and maintain documentation for the completion of training
   6. Enhance the POA&M reporting/review process to include details of resources required
      for remediation, and an explanation for any delays in implementing corrective actions
   7. Strengthen the POA&M process to require individuals to reference evidence supporting
      the closure of a POA&M item
   8. Strengthen contractor oversight to ensure compliance with the Corporation’s security
      requirements by clearly assigning oversight responsibility and required activities for
      Contracting Officers (CO), system owners, and supporting IT professionals
   9. Research avenues to implement two-factor authentication, such as leveraging Federal
      shared service providers to reduce upfront technology costs, lower per unit cost, and
      adopt a gradual, phased-deployment strategy to overcome current budget constraints.




                                               7
                                                                          CNCS FY 2013 FISMA Evaluation
                                                                                 Final Report for FY 2013



3.       FINDINGS

3.1      ISCM Strategy

Background:
Information Security Continuous Monitoring is
defined as maintaining ongoing awareness of
information security, vulnerabilities, and threats to
support organizational risk management decisions.
According to NIST SP 800-137, Information Security
Continuous Monitoring for Federal Information
Systems and Organizations, effective ISCM begins
with development of a strategy that addresses ISCM
requirements and activities at each organizational tier
(i.e., organization, mission/business process, and
information system). Each tier monitors security
metrics and assesses security control effectiveness with
established monitoring and assessment frequencies,
and status reports customized to support tier-specific
decision-making.        NIST describes continuous
monitoring as a six step process, as depicted in Exhibit 1: ISCM Process.

Finding #1: Lack of a Formally Documented and Fully Implemented ISCM Strategy
(See Appendix B, related DHS Question #1: Continuous Monitoring Management)

Condition:
The Corporation has not formally documented and implemented an organization-wide ISCM
strategy, as mandated by OMB guidance and required by four NIST SPs. The Corporation’s
Information Assurance Program (IAP) provides for the continuous monitoring of information
system (Tier 3) controls; however, the IAP does not define all processes supporting a continuous
monitoring program across the entire organization or define meaningful, reportable metrics for
all business processes supporting the Corporation’s mission.

An ISCM strategy consists of activities at three levels within an organization: Tier 1 –
Organization, Tier 2 – Mission/Business Process, and Tier 3 – Information System. Such
activities should include the following:

      1. Policy that defines key metrics
      2. Policy for modifications to and maintenance of the monitoring strategy
      3. Policies and procedures for the assessment of security control effectiveness (common,
         hybrid, and system-level controls)
      4. Policies and procedures for security status monitoring
      5. Policies and procedures for security status reporting (on control effectiveness and status
         monitoring)
      6. Policies and procedures for assessing risks, and gaining threat information and insights
      7. Policies and procedures for configuration management and security impact analysis



                                                  8
                                                                                 CNCS FY 2013 FISMA Evaluation
                                                                                        Final Report for FY 2013



    8. Policies and procedures for implementation and use of organization-wide tools
    9. Policies and procedures for establishment of monitoring frequencies
    10. Policies and procedures for determining sample sizes and populations, and managing
        object sampling
    11. Procedures for determining security metrics and data sources
    12. Templates for assessing risks
    13. Templates for security status reporting (on control effectiveness and status monitoring). 3

Cause:
The Corporation is currently in the process of revising procedural documentation and has not
fully adopted the current guidance from NIST regarding continuous monitoring. According to
the Corporation’s CIO, the Corporation has a strategy for continuous monitoring; this strategy is
reflected in the Corporation’s daily security practices. With a small team of security
professionals, the CIO thought that the strategy was adequately communicated without
documentation. Additionally, the impact of sequestration resulted in an approximate 12% IT
budget decrease and left fewer resources available for implementing information security
initiatives.

Criteria:
In 2009, OMB and NIST acknowledged that the then-existing Government-wide approach of re-
assessing all general support systems and major applications every three years, as required by
OMB Circular A-130, Appendix III, did not address the dynamic nature of IT and the constantly
changing threat landscape to the organization, business/mission, and supporting information
systems. OMB and NIST therefore determined that agencies needed to develop near-real time
continuous monitoring practices. OMB Memorandum M-12-20, FY 2012 Reporting Instructions
for the Federal Information Security Management Act and Agency Privacy Management,
provides specific guidance regarding continuous monitoring and risk management practices.
OMB states in its Frequently Asked Questions:

        # 29: Is a security reauthorization still required every 3 years or when an
        information system has undergone significant change as stated in OMB Circular A-
        130? No. Rather than enforcing a static, three-year reauthorization process, agencies are
        expected to conduct ongoing authorizations of information systems through the
        implementation of continuous monitoring programs. Continuous monitoring programs
        thus fulfill the three-year security reauthorization requirement, so a separate re-
        authorization process is not necessary. In an effort to implement a more dynamic, risk-
        based security authorization process, agencies should follow the guidance in NIST
        Special Publication 800-37. Agencies should develop and implement continuous
        monitoring strategies for all information systems which address all security controls
        implemented, including the frequency and degree of rigor associated with the monitoring
        process. Continuous monitoring strategies should also include all common controls
        inherited by organizational information systems. Continuous monitoring strategies
        should be developed in accordance with NIST SP 800-137, Information Security
        Continuous Monitoring for Federal Information Systems and Organizations, and
3
 NIST SP 800-137, Information Security Continuous Monitoring for Federal Information Systems and
Organizations, Section 3.1, “Define ISCM Strategy.”


                                                     9
                                                                          CNCS FY 2013 FISMA Evaluation
                                                                                 Final Report for FY 2013



        approved by appropriate authorizing officials. Agency officials should monitor the
        security state of their information systems on an ongoing basis with a frequency
        sufficient to make ongoing risk-based decisions on whether to continue to operate the
        systems within their organizations. Continuous monitoring programs and strategies
        should address: (i) establishment of metrics to be monitored; (ii) establishment off
        frequencies for monitoring/assessments; (iii) ongoing security control assessments to
        determine the effectiveness of deployed security controls; (iv) ongoing security status
        monitoring; (v) correlation and analysis of security-related information generated by
        assessments and monitoring; (vi) response actions to address the results of the analysis;
        and (vii) reporting the security status of the organization and information system to senior
        management officials consistent with guidance in NIST SP 800-137.

NIST provides specific guidance to Federal agencies for implementing a continuous monitoring
program in four key NIST SPs, listed below in order of precedence:

    •   NIST SP 800-53, Rev. 3, Recommended Security Controls for Federal Information
        Systems and Organizations, August 2009. Please refer to required Security Control CA-
        7, “Continuous Monitoring”; and related Security Controls RA-2, “Security
        Categorization”; CA-2, “Security Assessment”; and CA-6, “Security Authorization”
    •   NIST SP 800-37, Rev. 1, Guide for Applying the Risk Management Framework to
        Federal Information Systems: A Security Life Cycle Approach, February 2010. This SP
        discusses the NIST RMF, which comprises six steps that provide a structured practice for
        incorporating information security and risk management activities into the system
        development lifecycle
    •   NIST SP 800-39, Managing Information Security Risk, March 2011. This SP provides
        guidelines for developing an ISCM strategy and implementing an ISCM program
    •   NIST SP 800-137, Information Security Continuous Monitoring for Federal Information
        Systems and Organizations, September 2011. This SP describes the fundamentals of
        ongoing monitoring in support of risk management.

Effect:
Failure to implement a comprehensive ISCM strategy weakens of the internal control
environment and increases the risk that inappropriate or unusual activity could go undetected,
possibly allowing fraud or unauthorized transactions. The Corporation is working to mitigate
this risk by adopting more recent NIST guidance and practices; however, these practices were
not fully implemented during FY 2013.

The bottom line is that the lack of a comprehensive and documented strategy leaves the
Corporation with important gaps in its IT security monitoring, such as its oversight of contractor
operated information systems. An ISCM strategy is a critical first step in identifying and
rectifying these and other gaps and ensuring that sensitive systems and information are secure.




                                                 10
                                                                          CNCS FY 2013 FISMA Evaluation
                                                                                 Final Report for FY 2013



Recommendation:
Kearney recommends that the Corporation:

      1. Document and fully implement an ISCM strategy that incorporates the following:
         a. Establishment of metrics to be monitored
         b. Establishment of frequencies for monitoring/assessments
         c. Ongoing security control assessments to determine the effectiveness of deployed
            security controls
         d. Ongoing security status monitoring
         e. Correlation and analysis of security-related information generated by assessments and
            monitoring
         f. Response actions to address the results of the analysis
         g. Reporting of the security status of the organization and information system to senior
            management officials consistent with guidance in NIST SP 800-137.

3.2       Risk Management

Background:
Title III of the E-Gov, entitled FISMA, emphasizes the need for organizations to develop,
document, and implement an organization-wide program to provide security for the information
systems that support its operations and assets.

Managing risk is a complex, multifaceted activity that requires the involvement of the entire
organization—from senior leaders/executives providing the strategic vision, and top-level goals
and objectives for the organization; to mid-level leaders planning, executing, and managing
projects; to individuals on the “front lines” operating the information systems supporting the
organization’s missions/business functions. NIST defines the key elements for effectively
managing information security risk organization-wide as follows:

      •   Assignment of risk management responsibilities to senior leaders/executives
      •   Ongoing recognition and understanding by senior leaders/executives of the information
          security risks to organizational operations and assets, individuals, other organizations,
          and the nation arising from the operation and use of information systems
      •   Establishing the organizational tolerance for risk and communicating that risk tolerance
          throughout the organization, including guidance on how risk tolerance impacts ongoing
          decision-making activities
      •   Accountability by senior leaders/executives for their risk management decisions, and for
          the implementation of effective, organization-wide risk management programs
      •   Understanding the organizational missions and business functions, and the relationships
          among missions/business functions and supporting processes.

In an era of constrained budgets, Federal agencies are increasingly integrating and consolidating
various internal control and risk management activities to reduce duplication of effort. To gain
efficiencies, several Federal agencies are centralizing responsibilities for conducting OMB
Circular A-123 internal control assessments along with required FISMA risk management and
security assessment activities under a central program office for internal controls. In another



                                                 11
                                                                         CNCS FY 2013 FISMA Evaluation
                                                                                Final Report for FY 2013



example, a Federal agency reorganized management responsibilities to make a single Chief
Security Officer responsible for information security, physical security, personnel security (i.e.,
background checks), and risk management activities. These examples reflect how different
agencies are addressing multiple OMB mandates for stronger internal controls and improved risk
management practices.

Risk management can be viewed as a “holistic” activity that is fully integrated into every aspect
of the organization. NIST SP 800-37, Rev. 1, Guide for Applying the Risk Management
Framework to Federal Information Systems, Section 2.1, “Integrated Organization-Wide Risk
Management,” illustrates a three-tiered approach to risk management that addresses risk-related
concerns at the organization level, the mission and business process level, and the information
system level.




Tier 1 addresses risk from an organizational perspective with the development of a
comprehensive governance structure and organization-wide risk management strategy that
includes the following:

   •   Techniques and methodologies the organization plans to employ to assess information
       system-related security risks and other types of risk of concern to the organization
   •   Methods and procedures the organization plans to use to evaluate the significance of the
       risks identified during the risk assessment
   •   Types and extent of risk mitigation measures the organization plans to employ to address
       identified risks
   •   Level of risk the organization plans to accept (i.e., risk tolerance)
   •   How the organization plans to monitor risk on an ongoing basis, given the inevitable
       changes to organizational information systems and their environments of operation
   •   Degree and type of oversight the organization plans to use to ensure that the risk
       management strategy is being effectively carried out.

Tier 2 addresses risk from a mission and business process perspective, and is guided by the risk
decisions at Tier 1. Tier 2 activities are closely associated with enterprise architecture and
include the following:




                                                12
                                                                        CNCS FY 2013 FISMA Evaluation
                                                                               Final Report for FY 2013



   •   Defining the core missions and business processes for the organization (including any
       derivative or related missions and business processes carried out by subordinate
       organizations)
   •   Prioritizing missions and business processes with respect to the goals and objectives of
       the organization
   •   Defining the types of information that the organization needs to successfully execute the
       stated missions and business processes, and the information flows both internal and
       external to the organization
   •   Developing an organization-wide information protection strategy and incorporating high-
       level information security requirements into the core missions and business processes
   •   Specifying the degree of autonomy for subordinate organizations (i.e., organizations
       within the parent organization) that the parent organization permits for assessing,
       evaluating, mitigating, accepting, and monitoring risk.

Tier 3 addresses risk from an information system perspective and is guided by the risk decisions
at Tiers 1 and 2. Tier 3 risk management activities include the following:

   •   Categorizing organizational information systems
   •   Allocating security controls to organizational information systems and the environments
       in which those systems operate consistent with the organization’s established enterprise
       architecture and embedded information security architecture
   •   Managing the selection, implementation, assessment, authorization, and ongoing
       monitoring of allocated security controls as part of a disciplined and structured system
       development lifecycle process implemented across the organization.

Risk decisions at Tiers 1 and 2 impact the ultimate selection and deployment of needed
safeguards and countermeasures (i.e., security controls) at the information system level.
Information security requirements are satisfied by the selection of appropriate management,
operational, and technical security controls from NIST SP 800-53.

Finding #2: Lack of Formally Documented and Fully Implemented RMF
(See Appendix B, related DHS Question #5: Risk Management)

Condition:
The Corporation’s risk management program addresses risk mainly at the information system
(Tier 3) level. Policy and documented processes for system-level assessments were substantially
compliant with requirements; however, Kearney noted the following:

   •   The Corporation lacks an organization-wide risk assessment that considers risks
       across the organization, including Tier 2 activities/business processes carried out by
       field offices
   •   The Corporation did not annually assess the security controls or risks of its
       Electronic System for Programs, Agreements, and National Service (eSPAN)
       application.




                                               13
                                                                                  CNCS FY 2013 FISMA Evaluation
                                                                                         Final Report for FY 2013



Cause:
The Corporation has not yet completed revisions to its information security procedures to
comply with the current guidance from NIST. Additionally, the impact of sequestration resulted
in an approximate 12% IT budget decrease and left fewer resources available for implementing
information security initiatives. Further, discussions with the Corporation’s CIO 4/Risk
Executive expressed the view that, as a “small agency,” the Corporation does not need to adopt
and/or document formal risk management strategies, as these decisions are reflected in corporate
security policies. The CIO/Risk Executive also commented that the distinction between internal
controls and information security controls at the business/program level (Tier 2) are unclear.
Lacking this clarity, the CIO/Risk Executive indicated that ultimate responsibility and ownership
of risk at the business/program level was not well defined; thus, risk management activities
focused on the business/program level did not occur.

Additionally, the Corporation’s risk management program does not have a mature process for
addressing risk from an organizational perspective, or an established process for monitoring
selected security controls for information systems. Specific to the eSPAN observation and lack
of a recent security assessment, management indicated that the eSPAN application was being
upgraded over several years and delayed a comprehensive security assessment until the upgrade
was complete to minimize security assessment costs. Such an approach, while perhaps cost-
effective, does not comply with OMB Memoranda and NIST security guidance.

Criteria:
NIST SP 800-39, Managing Information Security Risk, Organization, Mission, and Information
System View, states:

        Tier 1 addresses risk from an organizational perspective by establishing and
        implementing governance structures that are consistent with the strategic goals and
        objectives of organizations and the requirements defined by federal laws, directives,
        policies, regulations, standards, and missions/business functions. Governance structures
        provide oversight for the risk management activities conducted by organizations and
        include: (i) the establishment and implementation of a risk executive (function); (ii) the
        establishment of the organization’s risk management strategy including the determination
        of risk tolerance; and (iii) the development and execution of organization-wide
        investment strategies for information resources and information security. governance is
        the set of responsibilities and practices exercised by those responsible for an organization
        (e.g., the board of directors and executive management in a corporation, the head of a
        federal agency) with the express goal of: (i) providing strategic direction; (ii) ensuring
        that organizational mission and business objectives are achieved; (iii) ascertaining that
        risks are managed appropriately; and (iv) verifying that the organization’s resources are
        used responsibly.

        Tier 2 addresses risk from a mission and business process perspective and is guided by
        the risk decisions at Tier 1. The risk management activities at Tier 2 begin with the
        identification and establishment of risk-aware mission/business processes to support the
4
 The Corporation’s CIO also holds the role of Risk Executive, as defined in NIST SP 800-39, Managing
Information Security Risk, Organization, Mission, and Information System View.


                                                      14
                                                                          CNCS FY 2013 FISMA Evaluation
                                                                                 Final Report for FY 2013



         organizational missions and business functions.                 Implementing risk-aware
         mission/business processes requires a thorough understanding of the organizational
         missions and business functions and the relationships among missions/business functions
         and supporting processes. Tier 2 activities are closely associated with enterprise
         architecture and include: (i) defining the core missions and business processes for the
         organization (including any derivative or related missions and business processes carried
         out by subordinate organizations); (ii) prioritizing missions and business processes with
         respect to the goals and objectives of the organization; (iii) defining the types of
         information that the organization needs to successfully execute the stated missions and
         business processes and the information flows both internal and external to the
         organization; (iv) developing an organization-wide information protection strategy and
         incorporating high-level information security requirements18 into the core missions and
         business processes; and (v) specifying the degree of autonomy for subordinate
         organizations (i.e., organizations within the parent organization) that the parent
         organization permits for assessing, evaluating, mitigating, accepting, and monitoring risk.

Effect:
An incomplete or out-of-date risk management program could leave the Corporation’s
management unaware of information security risks affecting the organization and its systems.
Without this knowledge, management may not take sufficient actions to reduce risk to the
Corporation’s programs.

Recommendations:
Kearney recommends that the Corporation:

      2. Document and fully implement a process for addressing and capturing risk at the
         organizational/mission and business process levels throughout the organization
      3. Clearly assign ownership and responsibilities for executing risk management processes at
         the business/program level (Tier 2)
      4. Ensure compliance with processes for monitoring security controls at the information
         system level (i.e., Tier 3), and obtain formal approval and necessary waivers for
         departures from Corporation policy. Further, establish and communicate potential
         disciplinary actions for noncompliance with the Corporation’s security policies.

3.3      Security Awareness and Training

Background:
Worldwide, some of the most effective attacks on cyber networks currently are directed at
exploiting user behavior. As cited in audit reports, periodicals, and conference presentations, it
is generally understood by the IT security professional community that people are one of the
weakest links in attempts to secure systems and networks. These threats are especially effective
when directed at those with elevated network privileges and/or other cyber responsibilities.
Training users (privileged and unprivileged) and those with access to other pertinent information
and media is a necessary deterrent to these methods. Therefore, organizations are expected to
use risk-based analysis to determine the correct amount, content, and frequency of updates to
achieve adequate security in the area of influencing these behaviors that affect cyber security.



                                                 15
                                                                         CNCS FY 2013 FISMA Evaluation
                                                                                Final Report for FY 2013



FISMA not only requires organizations to ensure all users of information and information
systems are aware of their information security responsibilities (Security Awareness and
Training Program), but also requires departments and agencies to identify and train those users
with significant responsibilities for information security (Role-based Training). Federal agencies
and organizations cannot protect the confidentiality, integrity, and availability of information in
today’s highly networked systems environment without ensuring that all people involved in
using and managing IT:

   •   Understand their roles and responsibilities related to the organization’s mission
   •   Understand the organization’s IT security policies, procedures, and practices
   •   Have at least adequate knowledge of the various management, operational, and technical
       controls required and available to protect the IT resources for which they are responsible.

Finding #3: Lack of a Fully Implemented of a Role-based Information Security Training
Program
(See Appendix B, related DHS Question #6: Security Training)

Condition:
Although the FISMA legislation, OMB, and NIST require role-based security training for
individuals with significant information security responsibilities, the Corporation has not
documented and implemented a comprehensive role-based security program. Certain role-based
security training modules have been developed, but have not yet been approved and disseminated
throughout the Corporation.

Cause:
The role-based security training module has been developed by IT staff, but has not been
formally approved and deployed throughout the Corporation. The Information Assurance Team
stated that budget constraints and emergency IT priorities have contributed to the delay. The
Corporation expects role-based security training to be implemented in December 2013. The
Corporation’s CIO also indicated that Corporation provides one-on-one training to individuals
with significant information security responsibility when they assume a new role; however, the
Corporation does not maintain evidence of this training.

Criteria:
NIST SP 800-50, Building an Information Technology Security Awareness and Training
Program, cites that a successful IT security program consists of:

   1. Developing IT security policy that reflects business needs tempered by known risks
   2. Informing users of their IT security responsibilities, as documented in agency security
      policies and procedures
   3. Establishing processes for monitoring and reviewing the program.

NIST SP 800-53, Rev. 3, Recommended Security Controls for Federal Information Systems and
Organizations, Section AT-3, “Security Training,” states:




                                                16
                                                                        CNCS FY 2013 FISMA Evaluation
                                                                               Final Report for FY 2013



       Control: The organization provides role-based security-related training: (i) before
       authorizing access to the system or performing assigned duties; (ii) when required by
       system changes; and (iii) [Assignment: organization-defined frequency] thereafter.

       Supplemental Guidance: The organization determines the appropriate content of
       security training based on assigned roles and responsibilities and the specific
       requirements of the organization and the information systems to which personnel have
       authorized access. In addition, the organization provides information system managers,
       system and network administrators, personnel performing independent verification and
       validation activities, security control assessors, and other personnel having access to
       system-level software, adequate security-related technical training to perform their
       assigned duties. Organizational security training addresses management, operational, and
       technical roles and responsibilities covering physical, personnel, and technical safeguards
       and countermeasures. The organization also provides the training necessary for these
       individuals to carry out their responsibilities related to operations security within the
       context of the organization’s information security program.

The Corporation’s Information Assurance Program, Section 3.2, “IA Awareness & Training,”
includes the following requirements:

                          Table 3: Security Training Requirements

                                                                       Training       Required
  Type                Objective                     Frequency
                                                                       Provider      Participation
                                  Program-Level Training
 Security Promote understanding of       1) Annually                     CISO               All
 Training information security and       2) When changes are
          privacy policies               made to policies
 Security Basic understanding of how 1) Annually                         CISO               All
Awareness to respond to risk
 Security Carry out information          1) Initial training             CISO         Individuals
  Role-   assurance risk management 2) Annually                                      with Program-
  Based   roles at the program level                                                 Level Security
 Training                                                                                Roles
                              System Specific-Level Training
 System   Understanding of system        1) Initial training (before      ISO               All
 Specific specific security and privacy access to systems or
 Security procedures (e.g., Rules of     information)
 Training Behavior)                      2) When changes are
                                         made to procedures
                                         3) Annually
 Security Provides security-related      1) Initial training (before      ISO          Individuals
  Role-   training specifically tailored performing duties)                           with Security
  Based   for their assigned duties at   2) Policy is changed                             Roles
 Training the system level (e.g.,        3) Annually
          incident response training)


                                               17
                                                                           CNCS FY 2013 FISMA Evaluation
                                                                                  Final Report for FY 2013



Effect:
A strong IT security program cannot be implemented without significant attention given to
training agency IT users on security policies, procedures, and techniques, as well as the various
management, operational, and technical controls necessary and available to secure IT resources.
In addition, those in the agency who manage the IT infrastructure need to have the necessary
skills to carry out their assigned duties effectively. Failure to give attention to security training
puts an enterprise at great risk because security of agency resources is as much a human issue as
it is a technology issue. Without specific training, a user may not know all of his/her information
security responsibilities under the Corporation’s policies and may be more vulnerable to cyber-
attacks. Additionally, without regular training, individuals with significant information security
responsibilities may not keep abreast of new OMB and NIST guidance.

Recommendation:
Kearney recommends that the Corporation:

      5. Implement role-based security training for all users with significant information security
         responsibilities and maintain documentation for the completion of training.

3.4       Evaluation of Agency POA&M Process

Background:
OMB Memorandum M-02-01, Guidance for Preparing and Submitting Security Plans of Actions
and Milestones, requires agencies to identify and report on deficiencies in their Information
Security Program. A POA&M is a tool that identifies tasks that need to be accomplished. It
details the required resources, milestones towards meeting the task, and scheduled completion
dates for the milestones. The purpose of this POA&M is to assist agencies in identifying,
assessing, prioritizing, and monitoring the progress of corrective efforts for security weaknesses
found in programs and systems.

Finding #4: Improvements Needed to POA&M Reporting
(See Appendix B, related DHS Question #7: Plan of Actions and Milestones)

Condition:
Kearney identified the following procedural weaknesses with the Corporation’s management of
POA&Ms:

      •   POA&Ms did not clearly identify resources (labor hours and/or costs) required to resolve
          open tasks
      •   Supporting evidence for closing open POA&Ms was not consistently referenced and
          maintained in the Corporation’s POA&M tracker.

Cause:
The Corporation’s CIO indicated that when security weaknesses are identified and POA&Ms
created, the Corporation opens a Change Request. The Corporation utilizes the Change Request
to track priorities and resources necessary for closing the POA&M item. The Corporation’s
prior POA&M process did not record the associated Change Request number with the POA&M



                                                 18
                                                                          CNCS FY 2013 FISMA Evaluation
                                                                                 Final Report for FY 2013



item. Additionally, the POA&M closure process did not require the participants to maintain
evidence of closure.

Criteria:
According to OMB Memorandum M-02-01, Guidance for Preparing and Submitting Security
Plans of Actions and Milestones:

        POA&Ms should contain, at minimum, (i) the stated weakness, (ii) the point of contact
        for the POA&M, (iii) the resources required to complete the POA&M, (iv) the scheduled
        date of completion, (v) the identified milestones complete with anticipated dates of
        completion, (vi) changes to the milestones, (vii) the source of the weakness, and (viii) the
        status of the POA&M. POA&Ms not only create a way to track and remediate
        weaknesses, but can be a valuable tool to communicate resource needs to Agency
        leadership and should be integrated with the annual budget process when significant
        investments are required.

Effect:
Without clearly identifying resources needed to plan for and remediate identified security
weaknesses, the Corporation may not adequately budget and identify resources required to
remediate identified vulnerabilities. Further, POA&M closures may not be adequately supported
and reviewed, resulting in potential vulnerabilities.

Recommendations:

Kearney recommends that the Corporation:

      6. Enhance the POA&M process to identify resources required for remediation either in the
         POA&M item or associated change request ticket
      7. Strengthen the POA&M process to require individuals to reference evidence supporting
         the closure of a POA&M item.

3.5     Evaluation of Contractor Oversight

Background:
FISMA and OMB policy require external providers handling Federal information or operating
information systems on behalf of the Federal Government to meet the security requirements
applicable to Federal agencies. Requirements for external providers, which include security
controls for processing, storing, or transmitting Federal information, must be expressed in
contracts or similar formal agreements. Organizations can require external providers to
implement all steps in the RMF, with the exception of the security authorization step. A Federal
agency that chooses to outsource IT services remains ultimately responsible for ensuring
appropriate security.

FISMA also requires Federal agencies to provide appropriate protection of their resources
through implementing a comprehensive Information Security Program that is commensurate with
the sensitivity of the information being processed, transmitted, and stored by agency information



                                                 19
                                                                            CNCS FY 2013 FISMA Evaluation
                                                                                   Final Report for FY 2013



systems. An institutionalized information security performance measurement program enables
agencies to collect and report on relevant FISMA performance indicators.

Finding #5: Improvements Needed to Ensure that Contractors Comply with the
Corporation’s Information Security Program Requirements
(See Appendix B, related DHS Question #10: Contractor Systems)

Condition:
Although the Corporation has defined general responsibilities for its COs, system owners, and IT
support professionals to monitor its IT contractors, the Corporation does not have systems or
processes in place to ensure that its employees actually provide the necessary oversight to
confirm that contractors implement mandated security controls. Corporation guidance expressly
requires the Corporation to ensure contractors, grantees, and other parties that operate
information systems for the Corporation or handle data on the Corporation’s behalf adhere to
FISMA, OMB requirements, and the Corporation’s information security and privacy policies.
Table 4 on the following page summarizes the applicable oversight responsibilities, as detailed
by the previous Corporation’s Chief Information Security Officer (CISO).

                           Table 4: Oversight Procedures Summary

                         OVERSIGHT PROCEDURES SUMMARY TABLE
                                                                     Supporting      Task Completion
            Task                 Primary Responsibility
                                                                        Roles         or Report Date
        IT Inventory      Information System Owner, Information    Project/Program        Prior to
        Registration       Owner, or the individual initiating the    Manager,        Implementation
                               procurement of the IT service           Service
                                                                       Provider
     FISMA Language/      Information System Owner, Information    Project/Program    Development of
      Memorandum of        Owner, or the individual initiating the    Manager            the Service
       Understanding           procurement of the IT service                             Agreement
    Preliminary Privacy   Information System Owner, Information    Project/Program   Prior to Collecting
    Impact Assessments     Owner, or the individual initiating the    Manager,          Information
                               procurement of the IT service           Service
                                                                       Provider
      Certification and   Information System Owner, Information        Service         Prior to System
       Accreditation        Owner, or Project/ Program Manager         Provider          Activation
  Update System Security  Information System Owner, Information        Service            April 15th
            Plan            Owner, or Project/ Program Manager         Provider          (Annually)
  Continuous Monitoring   Information System Owner, Information        Service            April 15th
                            Owner, or Project/ Program Manager         Provider          (Annually)
     Contingency Plan     Information System Owner, Information        Service            April 15th
           Testing          Owner, or Project/ Program Manager         Provider          (Annually)
  Security and Awareness  Information System Owner, Information        Service            April 15th
          Training          Owner, or Project/ Program Manager         Provider          (Annually)
          POA&M           Information System Owner, Information        Service          As Required
                            Owner, or Project/ Program Manager         Provider
      Privacy/Security    Information System Owner, Information        Service        Upon Discovery
          Incidents         Owner, or Project/ Program Manager         Provider        or Detection




                                                 20
                                                                            CNCS FY 2013 FISMA Evaluation
                                                                                   Final Report for FY 2013



After reviewing IT contracts for the Corporation’s Managed Data Center Services (MDCS)
provider (SRA), its data center provider (Savvis), and support services contracts for the
eSPAN/MyAmeriCorps portal (enGenius and Planned Systems International), together with the
procedures setting forth the relevant oversight activities, Kearney determined that the
Corporation’s process does not describe in sufficient detail the steps and evaluation criteria
necessary for review of security assessment documentation (i.e., updated System Security Plan,
Continuous Monitoring Plan, Contingency Plan test results, or updated POA&M) and security
performance measures required from its IT contractors. Further, the IT contracts appeared to use
a generic list of security requirements, but did not specify the security controls or a tailored set of
security controls relevant to those contracted IT services. In addition, the IT contracts did not
define information security goals and objectives, performance measures, and technical
compliance requirements for measuring performance effectiveness, efficiency, or frequency of
control execution.

Cause:
The Corporation’s management acknowledged that the Corporation was not following the
oversight procedures described by its own documentation, in part because the procedures were
not communicated to Corporation personnel charged with responsibility. Further, while the use
of a generic list of security requirements may have been intended to promote consistency and
shift the burden of compliance to the contractor, it was confusing and counterproductive because
neither the Corporation nor contractor personnel understood clearly which of the 240+ NIST
security controls, Corporation-specific requirements, and policies were relevant to each service
contract; how oversight would be implemented; and how contractor compliance would be
measured. The Corporation’s management also expressed the view that they conducted
oversight of its IT contractors and their security controls throughout the year, but did not
consistently maintain evidence of this oversight for all IT contracts and conduct it according to
the due dates listed in Table 4 above.

Criteria:
NIST SP 800-53, Rev. 3, Recommended Security Controls for Federal Information Systems and
Organizations, Section SA-9, “External Information System Services,” states:

       Control: The organization:
          a. Requires that providers of external information system services comply with
              organizational information security requirements and employ appropriate security
              controls in accordance with applicable federal laws, Executive Orders, directives,
              policies, regulations, standards, and guidance;
          b. Defines and documents government oversight and user roles and responsibilities
              with regard to external information system services; and
          c. Monitors security control compliance by external service providers.




                                                  21
                                                                           CNCS FY 2013 FISMA Evaluation
                                                                                  Final Report for FY 2013



NIST SP 800-35, Guide to Information Technology Security Services, dated October 2003,
states:

        4.5.1 Monitor Service Provider Performance:

        The operational phase is similar to the assessment phase. The data collected during the
        assessment phase should be used to capture the performance level of this new service
        provider. During the operations phase, the desired future arrangement becomes the
        current arrangement.

        The targets set forth in the service agreement should be compared with the metrics
        gathered. Although metrics will provide service-level targets, the organization may also
        want to use end user evaluations or customer satisfaction level surveys to evaluate
        performance. The IT security managers will have to work with other operational
        managers (such as customer service managers) to ensure that the service provider is
        meeting service targets. The IT security managers also need to ensure service providers
        are complying with IT security policy and processes, as well as applicable laws and
        regulations. IT security managers must ensure during the operations phase that the
        service provider does not compromise private, confidential, personal, or mission-sensitive
        data. Compliance reports will help with this effort. The service agreement should have
        included clauses that specify penalties and/or remedies for noncompliance and
        management should employ these when the service provider does not perform as the
        contract dictates.

Effect:
Without formal monitoring processes and clearly assigned responsibilities for monitoring
contractor performance, weaknesses in the security controls implemented by the Corporation’s
contractors may not be detected, potentially resulting in significant errors and irregularities. This
may place the Corporation’s data at risk.

Recommendation:
Kearney recommends that the Corporation:

      8. Strengthen contractor oversight to ensure compliance with the Corporation’s security
         requirements by clearly assigning oversight responsibility and required activities for
         COs, system owners, and supporting IT professionals.

3.6     Identity and Access Management Controls

Background:
The key goal of identity and access management is to limit access to those individuals or
processes that require use of otherwise restricted information. Identity and access management
controls work together to affirm the logical identity of a user, process, or application, and
appropriately control access to computer resources (e.g., data, equipment, facilities), thereby
protecting them from unauthorized modification, loss, and disclosure. Identity controls are




                                                 22
                                                                                  CNCS FY 2013 FISMA Evaluation
                                                                                         Final Report for FY 2013



implemented using authentication factors such as an account ID, password, physical token,
fingerprint, or Personal Identity Verification (PIV) card.

Given the rise in sophisticated malware that steals account IDs and passwords, OMB and DHS
have mandated that Federal agencies strengthen identity and access management controls to
thwart such attacks by using multi-factor authentication. According to OMB and DHS, “A
single-factor authentication mechanism, such as a username and password, is insufficient to
block even basic attackers.” 5 Thus, strong information system authentication requires multiple
factors to securely authenticate a user. Secure authentication requires something you have,
something you are, and something you know. The President signed the implementation of
Homeland Security Presidential Directive (HSPD)-12, Policy for a Common Identification
Standard for Federal Employees and Contractors, on August 27, 2004. This Presidential
Directive requires all Federal agencies to use a standard badge for both physical and logical
access. DHS indicated in its 2013 CIO and IG FISMA Reporting Metrics that the
implementation of HSPD-12/PIV card is an “Administration Priority,” with two-factor
authentication to be implemented Government-wide using PIV cards.

To manage the costs of implementing two-factor authentication for agency desktops and laptops,
many Federal agencies are gradually implementing two-factor authentication as part of their
desktop replacement cycle and migration from the Windows XP to Windows 7 operating system.
Smaller Federal agencies are also leveraging Federal shared service providers and their
technology infrastructure to significantly reduce the upfront costs of implementing two-factor
authentication with PIV credentials. NIST states that small agencies may join with other
agencies (and are encouraged to do so when cost-effective) to implement and use FIPS PUB 201
compliant 6 components and systems.

Finding #6: Lack of Two-factor Authentication to the Corporation’s Desktops, Laptops,
and Corporate Network
(See Appendix B, related DHS Question #3: Identity and Access Management)

Condition:
The Corporation’s laptops and desktops have not been configured to use PIV credentials for both
physical and logical access control, as required by OMB Memoranda and NIST security
guidance.

Cause:
OMB mandated the use of PIV cards for two-factor access without providing additional funding
for its implementation. Moreover, IT budget decreases have left fewer resources available for
implementing information security initiatives. Based on prior research, the Corporation
determined that the cost of implementing two-factor authentication using a PIV card would be
greater than the anticipated benefit.



5
 FY 2013 IG FISMA Reporting Metrics, dated November 30, 2012, Question 3, “Identity and Access.”
6
 FIPS PUB 201 is a Federal Government standard that specifies PIV requirements for Federal employees and
contractors.


                                                      23
                                                                                     CNCS FY 2013 FISMA Evaluation
                                                                                            Final Report for FY 2013



Criteria:
The President signed the implementation of HSPD-12, Policy for a Common Identification
Standard for Federal Employees and Contractors, on August 27, 2004. This Presidential
Directive requires all Federal agencies to use a standard badge for both physical and logical
access. The purpose of a PIV badge is to “…support inter-agency interoperability” across the
Federal Government. 7 DHS indicated in its 2013 CIO and IG FISMA Reporting Metrics that the
implementation of the HSPD-12/PIV card is an “Administration Priority” with two-factor
authentication to be implemented Government-wide using PIV cards.

Further, NIST SP 800-53, Rev. 3 requires all Federal information systems to implement Security
Control IA-2, “Identification and Authentication (Organization Users),” which states:

           1. “The information system uses multifactor authentication for network access to
              privileged accounts.
           2. The information system uses multifactor authentication for network access to non-
              privileged accounts.
           3. The information system uses multifactor authentication for local access to privileged
              accounts.”
Effect:
In addition to noncompliance with HSPD-12 requirements, the current single-factor
authentication mechanisms (e.g., a user ID and password) are no longer sufficient to block even
unsophisticated attacks, given the advances in computer power and password cracking
techniques, thereby increasing the likelihood of penetration.

Recommendation:
Kearney recommends that the Corporation:

       9. Research avenues to implement two-factor authentication, such as leveraging a Federal
          shared service provider to reduce upfront technology costs, lower per unit cost, and
          adopt a gradual, phased-deployment strategy to overcome current budget constraints.




7
    FIPS PUB 201-1, Personal Identity Verification of Federal Employees and Contractors, dated March 2006.


                                                        24
                                    CNCS FY 2013 FISMA Evaluation
                                           Final Report for FY 2013



APPENDIX A: MANAGEMENT’S RESPONSE




                              25
     CNCS FY 2013 FISMA Evaluation
            Final Report for FY 2013




26
     CNCS FY 2013 FISMA Evaluation
            Final Report for FY 2013




27
     CNCS FY 2013 FISMA Evaluation
            Final Report for FY 2013




28
     CNCS FY 2013 FISMA Evaluation
            Final Report for FY 2013




29
     CNCS FY 2013 FISMA Evaluation
            Final Report for FY 2013




30
     CNCS FY 2013 FISMA Evaluation
            Final Report for FY 2013




31
     CNCS FY 2013 FISMA Evaluation
            Final Report for FY 2013




32
     CNCS FY 2013 FISMA Evaluation
            Final Report for FY 2013




33
     CNCS FY 2013 FISMA Evaluation
            Final Report for FY 2013




34
     CNCS FY 2013 FISMA Evaluation
            Final Report for FY 2013




35
     CNCS FY 2013 FISMA Evaluation
            Final Report for FY 2013




36
                                                                                  CNCS FY 2013 FISMA Evaluation
                                                                                         Final Report for FY 2013



APPENDIX B: KEARNEY’S AND OIG’S ANALYSIS OF PLANNED ACTIONS

On November 26, 2013, the Corporation for National and Community Service (Corporation)
provided written responses (Appendix A) to the draft of this report. The Corporation agreed
with the factual accuracy of all observations, but only partially agreed with recommended
actions. The prevailing rationale for the partial agreement is that as a small Government
corporation, the additional security controls required by the Office of Management and
Budget (OMB) and National Institute of Standards and Technology (NIST) of larger,
cabinet-level agencies were not appropriate or cost effective for the Corporation to
implement. In this light, the Corporation agreed to consider the merits of our
recommendations, but would generally not agree to implement them. In one instance, the
Corporation cited an August 5, 2005 OMB Memorandum, M-05-24, Implementation of
Homeland Security Presidential Directive (HSPD) 12, as exempting Government
corporations from implementing personal identity verification (PIV) cards for physical
access and logical access to Government networks, desktops, and data. Subsequent
memoranda from OMB 8, NIST, and the Department of Homeland Security (DHS) do not
provide an exemption for Government corporations to not implement the requirements of
HSPD 12 and Federal Information Processing Standards (FIPS) Publication (PUB) 201-1,
Personal Identity Verification (PIV) of Federal Employees and Contractors, dated March
2006. For example, OMB Memorandum M-11-11, Continued Implementation of HSPD-12-
Policy for a Common Identification Standard for Federal Employees and Contractors, dated
February 3, 2011, mandates that all Federal agencies implement HSPD 12 and associated
requirements for two-factor authentication using a PIV badge. The Corporation must
determine if it is legally required to implement PIV cards for both physical and logical
access to the network. Regardless, it is widely recognized by information security
professionals that two-factor authentication is an industry best practice, provides superior
identification and authentication of users, and can thwart attacks to capture a user’s ID and
password.

In the following tables, Kearney and the OIG evaluated the Corporation’s response for each
of the six findings and determined if the Corporation’s planned actions were responsive to
the recommendation. Kearney defined responsive as follows:
    • Yes indicates that planned actions fully address the noted weakness and root cause.
    • No indicates that planned actions do not address the noted weakness and root cause.
    • Partial indicates that planned actions do not fully address the noted weakness and
        additional actions are necessary.




8
  Since 2002, OMB issues annual Federal Information Security Management Act (FISMA) reporting instructions for
agencies’ Chief Information Officers (CIO), Senior Agency Official for Privacy, and Inspector Generals. The
annual FISMA reporting instructions clarify OMB’s interpretation of the FISMA legislation and include a
Frequently Asked Questions (FAQ) section to explain OMB policy. The most recent OMB FISMA reporting
instructions were issued on November 18, 2013 (OMB Memorandum M-14-04). OMB clearly states that the
Federal Information Processing Standards (FIPS) may not be waived by Federal agencies (Question 11, page 5).
The FAQs section does not provide any exemption for Government corporations to not implement PIV badges for
both physical and logical access.


                                                      37
                                                                                              CNCS FY 2013 FISMA Evaluation
                                                                                                     Final Report for FY 2013



The following items will remain open until follow-up is conducted in the fiscal year (FY)
2014 FISMA evaluation and the Office of Inspector General (OIG) determines that agreed-
upon corrective actions are complete and responsive.

Finding 1: Lack of a Formally Documented and Fully Implemented Information
Security Continuous Monitoring (ISCM) Strategy

                                                Corporation           Planned Corporation
No.         Recommendation                                                                          Evaluator Analysis
                                                 Comment                     Action
 1    Document and fully                   The                       CNCS will review its           Responsive: Partial
      implement an ISCM strategy           recommendation            ISCM strategy in light
      that incorporates the                implies                   of OIG                      Kearney agrees that the
      following:                           implementation of         recommendations and         Corporation’s planned
      a. Establishment of metrics          the full range and        make any appropriate        action is an appropriate
           to be monitored                 depth of guidance         adjustments to              first step; however, the
      b. Establishment of                  contained in the          process or                  Corporation does not
           frequencies for                 NIST SP. CNCS             documentation as            agree to document its
           monitoring/assessments          has tailored              necessary.                  ISCM strategy and
      c. Ongoing security control          guidance regarding                                    identify key security
           assessments to determine        ISCM based on its                                     metrics. Kearney
           the effectiveness of            assessment of                                         continues to make the
           deployed security               agency risks,                                         recommendation as stated.
           controls                        mission,
      d. Ongoing security status           organization, size,
           monitoring                      etc.
      e. Correlation and analysis
            of security-related
            information generated
            by assessments and
            monitoring
      f. Response actions to
            address the results of the
            analysis
      g. Reporting of the security
           status of the organization
           and information system
           to senior management
           officials consistent with
           guidance in NIST Special
           Publication (SP) 800-
           137.

Finding 2: Lack of Formally Documented and Fully Implemented Risk Management
Framework (RMF)

                                            Corporation             Planned Corporation
No.       Recommendation                                                                           Evaluator Analysis
                                              Comment                      Action
 2    Document and fully                 CNCS                      CNCS will review its            Responsive: Partial
      implement a process for            incorporates a            risk management
      addressing and capturing           holistic approach         framework in light of       Kearney agrees that the
      risk at the organization,          to risk assessment        OIG                         Corporation’s planned
      mission, and business              to include all            recommendations and         action is an appropriate first



                                                              38
                                                                                        CNCS FY 2013 FISMA Evaluation
                                                                                               Final Report for FY 2013



                                      Corporation              Planned Corporation
No.       Recommendation                                                                     Evaluator Analysis
                                        Comment                       Action
      process levels throughout    levels of the              make any appropriate       step; however, the
      the organization.            organization in            adjustments to             Corporation does not agree
                                   making                     processes or               to document its risk
                                   information                documentation as           management approach and
                                   assurance                  necessary.                 consider Levels I and II in
                                   decisions,                                            its methodology, consistent
                                   policies, and                                         with NIST SP 800-37,
                                   investments, and                                      Revision (Rev.) 1, Guide
                                   tailors NIST                                          for Applying the Risk
                                   guidance to agency                                    Management Framework to
                                   needs.                                                Federal Information
                                                                                         Systems: A Security Life
                                                                                         Cycle Approach. Kearney
                                                                                         continues to make the
                                                                                         recommendation as stated.
 3    Clearly assign ownership     CNCS                   CNCS will review its risk          Responsive: Partial
      and responsibilities for     incorporates a         management framework
      executing risk management    holistic approach      in light of OIG                Kearney agrees that the
      processes at the             to risk assessment     recommendations and            Corporation’s planned
      business/program level       to include all         make any appropriate           action is an appropriate first
      (Tier 2).                    levels of the          adjustments to process or      step; however, the
                                   organization in        documentation as               Corporation does not agree
                                   making                 necessary.                     to document and clearly
                                   information                                           assign roles and
                                   assurance                                             responsibilities for risk
                                   decisions, policies                                   management functions at
                                   and investments,                                      the business level.
                                   tailoring NIST                                        Kearney continues to make
                                   guidance to agency                                    the recommendation as
                                   needs.                                                stated.
 4    Ensure compliance with       CNCS currently         CNCS will review its               Responsive: Partial
      processes for monitoring     monitors security      policies and processes in
      security controls at the     controls at the        these areas in light of OIG    Kearney acknowledges the
      information system level     system level,          recommendations and            cost justification in
      (i.e., Tier 3), and obtain   prepares and           make any appropriate           delaying the application
      formal approval and          approves waivers,      adjustments to processes       risk assessment and
      necessary waivers for        and takes              or documentation as            encourages the Corporation
      departures from              disciplinary action    necessary.                     to document its risk
      Corporation policy.          as appropriate.                                       acceptance and departure
      Further, establish and                                                             from Corporate policy
      communicate potential                                                              when such events occur. In
      disciplinary actions for                                                           the case of eSPAN, the
      noncompliance with the                                                             Corporation should
      Corporation’s security                                                             complete the risk
      policies.                                                                          assessment. Kearney
                                                                                         continues to make the
                                                                                         recommendation as stated.




                                                         39
                                                                                    CNCS FY 2013 FISMA Evaluation
                                                                                           Final Report for FY 2013



Finding 3: Lack of a Fully Implemented Role-Based Information Security Training
Program

                                        Corporation         Planned Corporation
No.       Recommendation                                                                 Evaluator Analysis
                                         Comment                    Action
 5    Implement role-based          CNCS provides            CNCS will improve            Responsive: Partial
      security training for all     written guidance and     documentation of        Kearney agrees that
      users with significant        desk side training to    training given.         documenting role-based
      information security          all users with                                   training provided to
      responsibilities and          significant                                      individuals with significant
      maintain documentation for    information security                             information security
      the completion of training.   responsibilities.                                responsibility is one action
                                                                                     of several needed. Other
                                                                                     key actions include
                                                                                     delivering role-based
                                                                                     security training to the
                                                                                     Corporation’s IT
                                                                                     professionals, Contracting
                                                                                     Officers, System Owners,
                                                                                     and other employees
                                                                                     involved in the oversight of
                                                                                     the Corporation’s IT
                                                                                     vendors to ensure that all
                                                                                     parties understand and
                                                                                     follow the Corporation’s
                                                                                     security policies. Kearney
                                                                                     continues to make the
                                                                                     recommendation as stated.

Finding 4: Improvements Needed to Plans of Actions and Milestones (POA&M) Reporting

                                        Corporation          Planned Corporation
No.        Recommendation                                                                Evaluator Analysis
                                         Comment                     Action
 6    Enhance the POA&M             CNCS has a robust       CNCS will clarify the       Responsive: Partial
      process to identify           process and             relationship between
      resources required for        significant             these two processes.      Kearney agrees that the
      remediation either in the     allocation of                                     Corporation’s planned
      POA&M item or the             resources to                                      action is an appropriate
      associated change request     aggressively                                      first step; however, the
      ticket.                       mitigate POA&M                                    Corporation did not agree
                                    items. Tracking of                                to estimate resources
                                    resource and                                      required to resolve noted
                                    implementation                                    security weaknesses
                                    actions are shared                                captured on either a
                                    between the                                       POA&M or a change
                                    POA&M and                                         request. Kearney believes
                                    system change                                     this is essential
                                    request processes.                                information for tracking
                                                                                      and communicating
                                                                                      resource needs to
                                                                                      Corporation Executives
                                                                                      when establishing the
                                                                                      annual budget for the
                                                                                      Corporation’s information



                                                      40
                                                                                      CNCS FY 2013 FISMA Evaluation
                                                                                             Final Report for FY 2013



                                       Corporation         Planned Corporation
No.        Recommendation                                                                  Evaluator Analysis
                                        Comment                  Action
                                                                                        security program.
                                                                                        Kearney continues to
                                                                                        make the
                                                                                        recommendation as
                                                                                        stated.

 7    Strengthen the POA&M          CNCS has not been      CNCS will modify                 Responsive: Yes
      process to require            consistent in          processes to ensure that
      individuals to reference      documenting            evidence supporting          The Corporation
      evidence supporting the       evidence               closure of a POA&M           concurred with the
      closure of a POA&M item.      supporting closure     item is consistently         recommendation to
                                    of POA&M items.        documented.                  provide improved close-
                                                                                        out documentation of
                                                                                        POA&M items.

Finding 5: Improvements Needed to Ensure that Contractors Comply with the
Corporation's Information Security Program Requirements

                                        Corporation        Planned Corporation
No.       Recommendation                                                                   Evaluator Analysis
                                         Comment                   Action
 8    Strengthen contractor         CNCS provides          CNCS will review its            Responsive: Partial
      oversight to ensure           adequate guidance      IT acquisition policies,
      compliance with the           to acquisition         processes, and training    Kearney agrees that the
      Corporation’s security        personnel and          regarding compliance       Corporation’s planned
      requirements by clearly       system owners          with the CNCS's            action is an appropriate first
      assigning oversight           regarding their        security requirements      step; however, the
      responsibility and required   responsibilities for   by IT contractors and      Corporation did not agree to
      activities for Contracting    requiring and          make any appropriate       take any specific action or
      Officers (CO), system         overseeing             adjustments to             clarify responsibilities of CO
      owners, and supporting        information            processes or               and system owners with
      information technology (IT)   security               documentation, as          regard to external IT
      professionals.                requirements on IT     necessary                  providers. Kearney
                                    contracts.                                        continues to make the
                                                                                      recommendation as stated.

Finding 6: Lack of Two-Factor Authentication to the Corporation’s Desktops, Laptops,
and Corporate Network

                                        Corporation        Planned Corporation
No.       Recommendation                                                                   Evaluator Analysis
                                         Comment                   Action
 9    Research avenues to           CNCS has applied       CNCS will continue              Responsive: Partial
      implement two-factor          discretion granted     to evaluate options
      authentication, such as       by OMB and NIST        for two-factor              Kearney recommends that
      leveraging a Federal          guidance in its        authentication for          the Corporation incorporate
      shared service provider to    implementation of      logical access to           the plan of action as defined
      reduce upfront technology     two-factor             Agency applications,        in OMB Memorandum M-
      costs, lower per unit cost,   authentication.        taking into                 11-11, Continued
      and adopt a gradual,          Two-factor             consideration               Implementation of
      phased-deployment             authentication is      potential shared            Homeland Security
      strategy to overcome          already                services and phased         Presidential Directive
      current budget constraints.   implemented for        implementation              (HSPD) 12 Policy for a



                                                      41
                                                                     CNCS FY 2013 FISMA Evaluation
                                                                            Final Report for FY 2013



                            Corporation        Planned Corporation
No.   Recommendation                                                      Evaluator Analysis
                             Comment                   Action
                       physical access to      strategies.            Common Identification
                       the HQ building and                            Standard for Federal
                       for logical access to                          Employees and Contractors.
                       the CNCS network                               Kearney continues to make
                       (either on-site or                             the recommendation as
                       remotely).CNCS                                 stated.
                       does not consider it
                       cost-effective to
                       implement two-
                       factor
                       authentication for
                       logical access to
                       CNCS applications
                       at this time.




                                         42
                                                                            CNCS FY 2013 FISMA Evaluation
                                                                                   Final Report for FY 2013



   APPENDIX C: RESPONSES TO DHS’S FY 2013 IG FISMA REPORTING METRICS

                                        FY 2013 IG FISMA Metrics
1: CONTINUOUS MONITORING MANAGEMENT
                                                                                              Answer
Please select Yes or No from the pull down menu.
1.1. Has the organization established an enterprise-wide continuous monitoring program
that assesses the security state of information systems that is consistent with FISMA
requirements, OMB policy, and applicable NIST guidelines? Besides the improvement             No
opportunities that may have been identified by the OIG, does the program include the
following attributes?
           Documented policies and procedures for continuous monitoring
 1.1.1.                                                                                       No
           (NIST SP 800-53: CA-7). (AP)
           Documented strategy and plans for continuous monitoring
1.1.2.                                                                                        No
           (NIST SP 800-37 Rev. 1, Appendix G). (AP)
           Ongoing assessments of security controls (system-specific, hybrid, and
           common) that have been performed based on the approved continuous
 1.1.3.                                                                                       Yes
           monitoring plans
           (NIST SP 800-53, NIST SP 800-53A). (AP)
           Provides authorizing officials and other key system officials with security status
           reports covering updates to security plans and security assessment reports, as
 1.1.4. well as a common and consistent POA&M program that is updated with the                Yes
           frequency defined in the strategy and/or plans (NIST SP 800-53, NIST SP 800-
           53A). (AP)
1.2 Please provide any additional information on the effectiveness of the organization’s Continuous
Monitoring Management Program that was not noted in the questions above.
1.2 Response: Current policies and procedures for continuous monitoring can be improved through
the implementation of an Information Security Continuous Monitoring Strategy that considers all
activities at the organization, mission/business process, and information systems tiers. The
Corporation for National and Community Service (Corporation) identified the need for the
development of an Information Security Continuous Monitoring Strategy for each system in its
Information Assurance Strategic Plan, dated October 2012.

2: CONFIGURATION MANAGEMENT
                                                                                               Answer
Please select Yes or No from the pull down menu.
2.1 Has the organization established a security configuration management program that
is consistent with FISMA requirements, OMB policy, and applicable NIST guidelines?
                                                                                                Yes
Besides the improvement opportunities that may have been identified by the OIG, does
the program include the following attributes?
2.1.1.    Documented policies and procedures for configuration management. (Base)               Yes
2.1.2.    Defined standard baseline configurations. (Base)                                      Yes




                                                   43
                                                                           CNCS FY 2013 FISMA Evaluation
                                                                                  Final Report for FY 2013



2: CONFIGURATION MANAGEMENT
                                                                                           Answer
Please select Yes or No from the pull down menu.
2.1.3.   Assessments of compliance with baseline configurations. (Base)                    Yes
         Process for timely (as specified in organization policy or standards) remediation
2.1.4.                                                                                     Yes
         of scan result deviations. (Base)
         For Windows-based components, USGCB secure configuration settings are
2.1.5.   fully implemented, and any deviations from USGCB baseline settings are fully      Yes
         documented. (Base)
         Documented proposed or actual changes to hardware and software
2.1.6.                                                                                     Yes
         configurations. (Base)
2.1.7.   Process for timely and secure installation of software patches. (Base)            Yes
         Software assessing (scanning) capabilities are fully implemented
2.1.8.                                                                                     Yes
         (NIST SP 800-53: RA-5, SI-2). (Base)
         Configuration-related vulnerabilities, including scan findings, have been
         remediated in a timely manner, as specified in organization policy or standards
2.1.9.                                                                                     Yes
         (NIST SP 800-53:
         CM-4, CM-6, RA-5, SI-2). (Base)
         Patch management process is fully developed, as specified in organization
2.1.10.                                                                                    Yes
         policy or standards (NIST SP 800-53: CM-3, SI-2). (Base)
2.2 Please provide any additional information on the effectiveness of the organization’s
Configuration Management Program that was not noted in the questions above.
2.2 Response: No additional information.

3: IDENTITY AND ACCESS MANAGEMENT
                                                                                              Answer
Please select Yes or No from the pull down menu.
3.1. Has the organization established an identity and access management program that is
consistent with FISMA requirements, OMB policy, and applicable NIST guidelines and
                                                                                               Yes
which identifies users and network devices? Besides the improvement opportunities that
have been identified by the OIG, does the program include the following attributes?
          Documented policies and procedures for account and identity management
3.1.1.                                                                                         Yes
          (NIST SP 800-53: AC-1). (Base)
          Identifies all users, including Federal employees, contractors, and others who
3.1.2.                                                                                         Yes
          access organization systems (NIST SP 800-53, AC-2). (Base)




                                                  44
                                                                           CNCS FY 2013 FISMA Evaluation
                                                                                  Final Report for FY 2013



3: IDENTITY AND ACCESS MANAGEMENT
                                                                                            Answer
Please select Yes or No from the pull down menu.
         Identifies when special access requirements (e.g., multi-factor authentication)
3.1.3.                                                                                       Yes
         are necessary. (Base)
         If multi-factor authentication is in use, it is linked to the organization’s PIV
3.1.4.                                                                                       Yes
         program where appropriate (NIST SP 800-53, IA-2). (KFM)
         Organization has planned for implementation of PIV for logical access in
3.1.5.   accordance with government policies (HSPD 12, FIPS 201, OMB M-05-24,                Yes
         OMB M-07-06, OMB M-08-01, OMB M-11-11). (AP)
         Organization has adequately planned for implementation of PIV for physical
3.1.6.   access in accordance with government policies (HSPD 12, FIPS 201,                   Yes
         OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11).
         Ensures that the users are granted access based on needs and separation-of-
3.1.7.                                                                                       Yes
         duties principles. (Base)
         Identifies devices with IP addresses that are attached to the network and
         distinguishes these devices from users. (For example: IP phones, faxes, and
3.1.8.                                                                                       Yes
         printers are examples of devices attached to the network that are distinguishable
         from desktops, laptops, or servers that have user accounts.) (Base)
         Identifies all user and non-user accounts. (Refers to user accounts that are on a
         system. Data user accounts are created to pull generic information from a
3.1.9.                                                                                       Yes
         database or a guest/anonymous account for generic login purposes. They are
         not associated with a single user or a specific group of users.) (Base)
         Ensures that accounts are terminated or deactivated once access is no longer
3.1.10.                                                                                      No
         required. (Base)
3.1.11. Identifies and controls use of shared accounts. (Base)                               No
3.2 Please provide any additional information on the effectiveness of the organization’s Identity and
Access Management Program that was not noted in the questions above.
3.2 Response: Due to budget cuts, the Corporation has elected not to implement two-factor
authentication for access to the Corporation’s desktops, servers, and network devices. The
Corporation has begun deployment of Homeland Security Presidential Directive (HSPD)-12 badges
to Federal employees; however, the implementation is limited to physical access to the Corporation’s
Headquarters building. Additionally, Kearney & Company, P.C. (Kearney) noted that there is a prior
year (PY) Notification of Finding and Recommendation (NFR) for inactive accounts that have not
been disabled and/or removed. Kearney noted that this has been identified and tracked on the system
Plan of Actions and Milestones (POA&M). The status of this action item is “ongoing.”




                                                   45
                                                                             CNCS FY 2013 FISMA Evaluation
                                                                                    Final Report for FY 2013



4: INCIDENT RESPONSE AND REPORTING
                                                                                             Answer
Please select Yes or No from the pull down menu.
4.1. Has the organization established an incident response and reporting program that is
consistent with FISMA requirements, OMB policy, and applicable NIST guidelines?
                                                                                             Yes
Besides the improvement opportunities that may have been identified by the OIG, does
the program include the following attributes?
          Documented policies and procedures for detecting, responding to, and reporting
4.1.1.                                                                                       Yes
          incidents (NIST SP 800-53: IR-1). (Base)
4.1.2.    Comprehensive analysis, validation, and documentation of incidents. (KFM)          Yes
          When applicable, reports to US-CERT within established timeframes (NIST SP
4.1.3.                                                                                       Yes
          800-53, NIST SP 800-61; OMB M-07-16, OMB M-06-19). (KFM)
          When applicable, reports to law enforcement within established timeframes (SP
4.1.4.                                                                                       Yes
          800-61). (KFM)
          Responds to and resolves incidents in a timely manner, as specified in
4.1.5.    organization policy or standards, to minimize further damage (NIST SP 800-53, Yes
          NIST SP 800-61; OMB M-07-16, OMB M-06-19). (KFM)
          Is capable of tracking and managing risks in a virtual/cloud environment, if
4.1.6.                                                                                       No
          applicable. (Base)
4.1.7.    Is capable of correlating incidents. (Base)                                        Yes
          Has sufficient incident monitoring and detection coverage in accordance with
4.1.8.    government policies (NIST SP 800-53, NIST SP 800-61; OMB M-07-16, OMB Yes
          M-06-19). (Base)
4.2 Please provide any additional information on the effectiveness of the organization’s Incident
Management Program that was not noted in the questions above.
4.2 Response: The Corporation does not currently utilize any Cloud Service Providers. As such,
Question 4.1.6 is not applicable to the Corporation.

5: RISK MANAGEMENT
                                                                                                Answer
Please select Yes or No from the pull down menu.
5.1. Has the organization established a risk management program that is consistent with
FISMA requirements, OMB policy, and applicable NIST guidelines? Besides the
                                                                                                 No
improvement opportunities that may have been identified by the OIG, does the program
include the following attributes?
          Documented policies and procedures for risk management, including
5.1.1.    descriptions of the roles and responsibilities of participants in this process.        Yes
          (Base)
          Addresses risk from an organization perspective with the development of a
5.1.2.    comprehensive governance structure and organization-wide risk management               No
          strategy as described in NIST SP 800-37, Rev. 1. (Base)




                                                   46
                                                                          CNCS FY 2013 FISMA Evaluation
                                                                                 Final Report for FY 2013



5: RISK MANAGEMENT
                                                                                            Answer
Please select Yes or No from the pull down menu.
         Addresses risk from a mission and business process perspective and is guided
5.1.3.   by the risk decisions from an organizational perspective, as described in NIST     No
         SP 800-37, Rev. 1. (Base)
         Addresses risk from an information system perspective and is guided by the
5.1.4.   risk decisions from an organizational perspective and the mission and business     Yes
         perspective, as described in NIST SP 800-37, Rev. 1. (Base)
5.1.5.   Has an up-to-date system inventory. (Base)                                         Yes
         Categorizes information systems in accordance with government policies.
5.1.6.                                                                                      Yes
         (Base)
5.1.7.   Selects an appropriately tailored set of baseline security controls. (Base)        Yes
         Implements the tailored set of baseline security controls and describes how the
5.1.8.   controls are employed within the information system and its environment of         No
         operation. (Base)
         Assesses the security controls using appropriate assessment procedures to
         determine the extent to which the controls are implemented correctly, operating
5.1.9.                                                                                      No
         as intended, and producing the desired outcome with respect to meeting the
         security requirements for the system. (Base)
         Authorizes information system operation based on a determination of the risk to
         organizational operations and assets, individuals, other organizations, and the
5.1.10.                                                                                     No
         Nation resulting from the operation of the information system and the decision
         that this risk is acceptable. (Base)
         Ensures information security controls are monitored on an ongoing basis,
         including assessing control effectiveness, documenting changes to the system
5.1.11. or its environment of operation, conducting security impact analyses of the         No
         associated changes, and reporting the security state of the system to designated
         organizational officials. (Base)
         Information-system-specific risks (tactical), mission/business-specific risks, and
5.1.12. organizational-level (strategic) risks are communicated to appropriate levels of    No
         the organization. (Base)
         Senior officials are briefed on threat activity on a regular basis by appropriate
5.1.13.                                                                                     Yes
         personnel (e.g., CISO). (Base)
         Prescribes the active involvement of information system owners and common
         control providers, chief information officers, senior information security
5.1.14.                                                                                     No
         officers, authorizing officials, and other roles as applicable in the ongoing
         management of information-system-related security risks. (Base)
         Security authorization package contains system security plan, security
         assessment report, and POA&M in accordance with government policies (NIST
5.1.15.                                                                                     Yes
         SP 800-18,
         NIST SP 800-37). (Base)
         Security authorization package contains accreditation boundaries, defined in
5.1.16. accordance with government policies, for organization information systems.          Yes
         (Base)




                                                  47
                                                                           CNCS FY 2013 FISMA Evaluation
                                                                                  Final Report for FY 2013



5: RISK MANAGEMENT
                                                                                            Answer
Please select Yes or No from the pull down menu.
5.2 Please provide any additional information on the effectiveness of the organization’s Risk
Management Program that was not noted in the questions above.
5.2 Response: The Corporation has not developed a Risk Management Program consistent with
Federal Information Security Management Act of 2002 (FISMA) requirements, Office of
Management and Budget (OMB) policy, and applicable National Institute of Standards and
Technology (NIST) guidelines. Specifically, the Corporation has not implemented the NIST Risk
Management Framework (RMF), as described in NIST Special Publication (SP) 800-37, Revision
(Rev.) 1; and NIST SP 800-39 at the Tier 1: Organizational and Tier 2: Mission/Business levels.

6: SECURITY TRAINING
                                                                                               Answer
Please select Yes or No from the pull down menu.
6.1. Has the organization established a security training program that is consistent with
FISMA requirements, OMB policy, and applicable NIST guidelines? Besides the
                                                                                               Yes
improvement opportunities that may have been identified by the OIG, does the program
include the following attributes?
          Documented policies and procedures for security awareness training
6.1.1.                                                                                         Yes
          (NIST SP 800-53: AT-1). (Base)
          Documented policies and procedures for specialized training for users with
6.1.2.                                                                                         Yes
          significant information security responsibilities. (Base)
          Security training content based on the organization and roles, as specified in
6.1.3.                                                                                         No
          organization policy or standards. (Base)
          Identification and tracking of the status of security awareness training for all
6.1.4.    personnel (including employees, contractors, and other organization users) with Yes
          access privileges that require security awareness training. (KFM)
          Identification and tracking of the status of specialized training for all personnel
          (including employees, contractors, and other organization users) with
6.1.5.                                                                                         No
          significant information security responsibilities that require specialized training.
          (KFM)
          Training material for security awareness training contains appropriate content
6.1.6.                                                                                         Yes
          for the organization (NIST SP 800-50, NIST SP 800-53). (Base)
6.2 Please provide any additional information on the effectiveness of the organization’s Security
Training Program that was not noted in the questions above.
6.2 Response: The Corporation identified the need for the development of a role-based training
program in its Information Assurance Strategic Plan, dated October 2012. The Corporation has
documented information technology (IT) security training policies and procedures; however, it has
not implemented these training procedures and practices for individuals with significant information
security responsibilities. The retirement of the Chief Information Security Officer (CISO) and a 12%
reduction in the IT budget has limited the Corporation’s ability to implement new IT initiatives with
existing resources.




                                                   48
                                                                          CNCS FY 2013 FISMA Evaluation
                                                                                 Final Report for FY 2013



7: PLAN OF ACTIONS AND MILESTONES (POA&M)
                                                                                           Answer
Please select Yes or No from the pull down menu.
7.1. Has the organization established a POA&M program that is consistent with FISMA
requirements, OMB policy, and applicable NIST guidelines and tracks and monitors
                                                                                            Yes
known information security weaknesses? Besides the improvement opportunities that
may have been identified by the OIG, does the program include the following attributes?
          Documented policies and procedures for managing IT security weaknesses
7.1.1.    discovered during security control assessments and that require remediation.      Yes
          (Base)
7.1.2.    Tracks, prioritizes, and remediates weaknesses. (Base)                            Yes
7.1.3.    Ensures remediation plans are effective for correcting weaknesses. (Base)         Yes
7.1.4.    Establishes and adheres to milestone remediation dates. (Base)                    No
          Ensures resources and ownership are provided for correcting weaknesses.
7.1.5.                                                                                      No
          (Base)
          POA&Ms include security weaknesses discovered during assessments of
          security controls and that require remediation (do not need to include security
7.1.6.                                                                                      Yes
          weakness due to a risk-based decision to not implement a security control)
          (OMB M-04-25). (Base)
          Costs associated with remediating weaknesses are identified (NIST SP 800-53,
7.1.7.                                                                                      No
          Rev. 3, Control PM-3; OMB M-04-25). (Base)
          Program officials report progress on remediation to CIO on a regular basis, at
          least quarterly, and the CIO centrally tracks, maintains, and independently
7.1.8.                                                                                      Yes
          reviews/validates the POA&M activities at least quarterly (NIST SP 800-53,
          Rev. 3, Control CA-5; OMB M-04-25). (Base)
7.2 Please provide any additional information on the effectiveness of the organization’s POA&M
Program that was not noted in the questions above.
7.2 Response: The Corporation has policies and procedures for managing its POA&Ms; however, it
has not consistently implemented these policies and procedures. Kearney noted that resources and
costs were not consistently estimated and reported in POA&Ms. Additionally, the existence of
overdue milestones suggests that corrective actions were not consistently implemented as scheduled,
and periodic updates to the POA&Ms were not performed to reflect new operational challenges and
milestone delays.

8: REMOTE ACCESS MANAGEMENT
                                                                                             Answer
Please select Yes or No from the pull down menu.
8.1. Has the organization established a remote access program that is consistent with
FISMA requirements, OMB policy, and applicable NIST guidelines? Besides the
                                                                                              Yes
improvement opportunities that may have been identified by the OIG, does the program
include the following attributes?
          Documented policies and procedures for authorizing, monitoring, and
8.1.1.    controlling all methods of remote access (NIST SP 800-53: AC-1, AC-17).             Yes
          (Base)
          Protects against unauthorized connections or subversion of authorized
8.1.2.                                                                                        Yes
          connections. (Base)




                                                  49
                                                                             CNCS FY 2013 FISMA Evaluation
                                                                                    Final Report for FY 2013



8: REMOTE ACCESS MANAGEMENT
                                                                                             Answer
Please select Yes or No from the pull down menu.
         Users are uniquely identified and authenticated for all access
8.1.3.                                                                                        Yes
         (NIST SP 800-46, Section 4.2, Section 5.1). (Base)
         Telecommuting policy is fully developed (NIST SP 800-46, Section 5.1).
8.1.4.                                                                                        Yes
         (Base)
         If applicable, multi-factor authentication is required for remote access
8.1.5.                                                                                        Yes
         (NIST SP 800-46, Section 2.2, Section 3.3). (KFM)
         Authentication mechanisms meet NIST SP 800-63 guidance on remote
8.1.6.                                                                                        Yes
         electronic authentication, including strength mechanisms. (Base)
         Defines and implements encryption requirements for information transmitted
8.1.7.                                                                                        Yes
         across public networks. (KFM)
         Remote access sessions, in accordance with OMB M-07-16, are timed-out after
8.1.8.                                                                                        No
         30 minutes of inactivity, after which re-authentication is required. (Base)
         Lost or stolen devices are disabled and appropriately reported
8.1.9.   (NIST SP 800-46, Section 4.3; US-CERT Incident Reporting Guidelines).                Yes
         (Base)
         Remote access rules of behavior are adequate in accordance with government
8.1.10.                                                                                       No
         policies (NIST SP 800-53, PL-4). (Base)
         Remote-access user agreements are adequate in accordance with government
8.1.11.                                                                                       No
         policies (NIST SP 800-46, Section 5.1; NIST SP 800-53, PS-6). (Base)
8.2 Please provide any additional information on the effectiveness of the organization’s Remote
Access Management that was not noted in the questions above.
8.2 Response: The Corporation does not have a Rules of Behavior Form specific to remote access
management. The general Rules of Behavior Form does include guidelines for remote access.
Additionally, the Corporation is in process of revising security requirements for session time-outs to
15 minutes of inactivity.
         Does the organization have a policy to detect and remove unauthorized (rogue)
8.3                                                                                           Yes
         connections?

9: CONTINGENCY PLANNING
                                                                                                Answer
Please select Yes or No from the pull down menu.
9.1. Has the organization established an enterprise-wide business continuity/disaster
recovery program that is consistent with FISMA requirements, OMB policy, and
                                                                                                 Yes
applicable NIST guidelines? Besides the improvement opportunities that may have been
identified by the OIG, does the program include the following attributes?
          Documented business continuity and disaster recovery policy providing the
          authority and guidance necessary to reduce the impact of a disruptive event or
9.1.1.                                                                                           Yes
          disaster
          (NIST SP 800-53: CP-1). (Base)
          The organization has incorporated the results of its system’s Business Impact
          Analysis (BIA) into the analysis and strategy development efforts for the
9.1.2.                                                                                           Yes
          organization’s Continuity of Operations Plan (COOP), Business Continuity
          Plan (BCP), and Disaster Recovery Plan (DRP) (NIST SP 800-34). (Base)




                                                    50
                                                                            CNCS FY 2013 FISMA Evaluation
                                                                                   Final Report for FY 2013



9: CONTINGENCY PLANNING
                                                                                               Answer
Please select Yes or No from the pull down menu.
         Development and documentation of division, component, and IT infrastructure
9.1.3.                                                                                          No
         recovery strategies, plans, and procedures (NIST SP 800-34). (Base)
9.1.4.   Testing of system-specific contingency plans. (Base)                                   No
         The documented BCP and DRP are in place and can be implemented when
9.1.5.                                                                                          Yes
         necessary (FCD1, NIST SP 800-34). (Base)
         Development of test, training, and exercise (TT&E) programs
9.1.6.                                                                                          No
         (FCD1, NIST SP 800-34, NIST SP 800-53). (Base)
         Testing or exercising of BCP and DRP to determine effectiveness and to
9.1.7.                                                                                          No
         maintain current plans. (Base)
         After-action report that addresses issues identified during contingency/disaster
9.1.8.                                                                                          No
         recovery exercises (FCD1, NIST SP 800-34). (Base)
          Systems that have alternate processing sites (FCD1, NIST SP 800-34, NIST SP
9.1.9.                                                                                       Yes
          800-53). (Base)
          Alternate processing sites are not subject to the same risks as primary sites
9.1.10.                                                                                      Yes
          (FCD1, NIST SP 800-34, NIST SP 800-53).
          Backups of information that are performed in a timely manner
9.1.11.                                                                                      Yes
          (FCD1, NIST SP 800-34, NIST SP 800-53). (Base)
9.1.12. Contingency planning that considers supply chain threats. (Base)                     No
9.2 Please provide any additional information on the effectiveness of the organization’s Contingency
Planning Program that was not noted in the questions above.
9.2 Response: Detailed testing of the Business Continuity Plan (BCP) and Disaster Recovery Plan
(DRP) was conducted during the current year. The Corporation and SRA International, Inc. (SRA)
have DRPs for the SRA Managed Data Center Services (MDCS) and at Savvis; however, testing of
controls for the Electronic System for Programs, Agreements, and National Service (eSPAN) is
currently in process and has not been performed for this current year because the application security
assessment is currently in process. This application is operating under an extended authority to
operate. Further, documentation evidencing a simulated disaster scenario or a “table top” exercise
was not provided.

10: CONTRACTOR SYSTEMS
                                                                                               Answer
Please select Yes or No from the pull down menu.
10.1. Has the organization established a program to oversee systems operated on its
behalf by contractors or other entities, including organization systems and services
residing in the cloud external to the organization? Besides the improvement                     Yes
opportunities that may have been identified by the OIG, does the program include the
following attributes?
          Documented policies and procedures for information security oversight of
10.1.1. systems operated on the organization’s behalf by contractors or other entities,         Yes
          including organization systems and services residing in a public cloud. (Base)
          The organization obtains sufficient assurance that security controls of such
10.1.2. systems and services are effectively implemented and comply with Federal and            No
          organization guidelines (NIST SP 800-53: CA-2). (Base)


                                                   51
                                                                             CNCS FY 2013 FISMA Evaluation
                                                                                    Final Report for FY 2013



10: CONTRACTOR SYSTEMS
                                                                                              Answer
Please select Yes or No from the pull down menu.
          A complete inventory of systems operated on the organization’s behalf by
10.1.3. contractors or other entities, including organization systems and services            Yes
          residing in a public cloud. (Base)
          The inventory identifies interfaces between these systems and organization-
10.1.4.                                                                                       Yes
          operated systems (NIST SP 800-53: PM-5). (Base)
          The organization requires appropriate agreements (e.g., MOUs, Interconnection
10.1.5. Security Agreements, contracts, etc.) for interfaces between these systems and        Yes
          those that it owns and operates. (Base)
10.1.6. The inventory of contractor systems is updated at least annually. (Base)              Yes
          Systems that are owned or operated by contractors or entities, including
10.1.7. organization systems and services residing in a public cloud, are compliant with Yes
          FISMA requirements, OMB policy, and applicable NIST guidelines. (Base)
10.2 Please provide any additional information on the effectiveness of the organization’s Contractor
Systems Program that was not noted in the questions above.
10.2 Response: The Corporation has developed security policies requiring Contracting Officers (CO)
and their technical representatives to conduct oversight and monitoring of their contractors’
adherence to Corporation security policies. However, the Corporation could not provide evidence of
this monitoring and adherence to agency policy.

11: SECURITY CAPITAL PLANNING
                                                                                                Answer
Please select Yes or No from the pull down menu.
11.1. Has the organization established a security capital planning and investment
program for information security? Besides the improvement opportunities that may have            Yes
been identified by the OIG, does the program include the following attributes?
         Documented policies and procedures to address information security in the
11.1.1.                                                                                          Yes
         capital planning and investment control (CPIC) process. (Base)
          Includes information security requirements as part of the capital planning and
11.1.2.                                                                                          Yes
          investment process. (Base)
         Establishes a discrete line item for information security in organizational
11.1.3.                                                                                      Yes
         programming and documentation (NIST SP 800-53: SA-2). (Base)
         Employs a business case/Exhibit 300/Exhibit 53 to record the information
11.1.4.                                                                                      Yes
         security resources required (NIST SP 800-53: PM-3). (Base)
         Ensures that information security resources are available for expenditure as
11.1.5.                                                                                      Yes
         planned. (Base)
11.2 Please provide any additional information on the effectiveness of the organization’s Security
Capital Planning Program that was not noted in the questions above.
11.2 Response: According to the Corporation’s management, the Corporation is not required to
prepare Exhibit 300, as the Corporation is considered a small agency for the purposes of FISMA.




                                                    52
                                                                            CNCS FY 2013 FISMA Evaluation
                                                                                   Final Report for FY 2013



APPENDIX D: RESULTS FROM NCCC AND STATE FIELD OFFICE ASSESSMENTS

Field office assessments were conducted at the Jackson State Office and National Civilian
Community Corps (NCCC)-Vicksburg and NCCC-Perry Point. As part of Kearney & Company,
P.C.’s (Kearney) assessment strategy, workspace and office suite areas were inspected for
personally identifiable information (PII) exposures. Kearney’s visits to these locations also
included an evaluation of workstation configuration and encryption, evaluation of controls to
ensure acceptable usage of Corporation for National and Community Service (Corporation)
network resources, physical security, rogue connections, PII management, and a search for
inappropriate material on Corporation workstations.

At the Jackson State Office, Kearney toured the State Office and noted that PII (paper and
portable electronic) was adequately stored and protected. Physical access controls to the facility
and State Office work area appeared to be sufficient, considering the State Office’s mission and
known threats. Kearney did not detect any wireless access points within proximity of the State
Office. Kearney noted that SRA International, Inc. (SRA) deployed technology to manage the
configuration of the Corporation’s laptops and deploy security patches. Based on an un-
credentialed vulnerability scan with the vulnerability tool, Nessus, these laptops appeared to be
sufficiently protected with an active personal firewall.

Kearney noted opportunities to improve site controls by formally evaluating risks at field
locations, establishing baseline controls, defining selected controls in a site-specific Security
Program Plan, and establishing an oversight program for field locations.

Field Office Scans

The Kearney Federal Information Security Management Act of 2002 (FISMA) Evaluation Team
conducted scans to assess site compliance with the Federal Desktop Core Configuration (FDCC)
and United States Government Compliance Baseline (USGCB) requirements. In order to
perform this task, Kearney employed the Nessus scanning tool with FDCC USGCB plug-ins to
scan laptop and desktop computer configurations for all devices at each location.

Scope Limitation

During the site visits, Kearney determined that the Corporation’s network security configuration
would not permit on-site compliance scanning for the SRA-managed desktops and network
devices using authenticated credentials (i.e., user ID and password). With the Office of Inspector
General’s (OIG) concurrence, Kearney and SRA agreed that subsequent scans would occur at the
end of the FISMA evaluation and be conducted remotely from the Corporation’s Headquarters in
Washington, D.C. The test results of these scans and associated findings are not included within
the scope of this report.

The OIG has determined that a separate Management Letter will be issued to bring to
management’s attention Kearney’s concerns over the Corporation’s oversight processes for field
offices.




                                                 53
                                                             CNCS FY 2013 FISMA Evaluation
                                                                    Final Report for FY 2013



APPENDIX D: ABBREVIATIONS AND ACRONYMS

BCP           Business Continuity Plan
CEO           Chief Executive Officer
CIO           Chief Information Officer
CIGIE         Council of Inspectors General on Integrity and Efficiency
CISO          Chief Information Security Officer
CO            Contracting Officer
Corporation   Corporation for National and Community Service
DHS           Department of Homeland Security
DRP           Disaster Recovery Plan
E-Gov         E-Government Act of 2002
eSPAN         Electronic System for Programs, Agreements, and National Service
FDCC          Federal Desktop Core Configuration
FIPS          Federal Information Processing Standards
FISMA         Federal Information Security Management Act of 2002
FY            Fiscal Year
HSPD          Homeland Security Presidential Directive
IAP           Information Assurance Program
ID            Identification
IG            Inspector General
ISCM          Information Security Continuous Monitoring
IT            Information Technology
Kearney       Kearney & Company, P.C.
MDCS          Managed Data Center Services
NCCC          National Civilian Community Corps
NFR           Notification of Finding and Recommendation
NIST          National Institute of Standards and Technology
OIG           Office of Inspector General
OMB           Office of Management and Budget
PII           Personally Identifiable Information
PIV           Personal Identity Verification
P.L.          Public Law
POA&M         Plan of Actions and Milestones
PUB           Publication
PY            Prior Year
Rev.          Revision
RMF           Risk Management Framework
SP            Special Publication
SRA           SRA International, Inc.
USGCB         United States Government Compliance Baseline




                                     54
                                                                      CNCS FY 2013 FISMA Evaluation
                                                                             Final Report for FY 2013



APPENDIX E: REFERENCED DOCUMENTS

Federal Information Security Management Act of 2002 (FISMA) (Title III, Public Law [P.L.]
No. 107-347)

Office of Management and Budget (OMB):

   •   Circular A-130, Appendix III, Security of Federal Automated Information Resources
   •   Memorandum M-07-19, FY 2007 Reporting Instructions for the Federal Information
       Security Management Act and Agency Privacy Management
   •   Memorandum M-07-16, Safeguarding Against and Responding to the Breach of
       Personally Identifiable Information
   •   Memorandum M-06-15, Safeguarding Personally Identifiable Information
   •   Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions of the
       E-Government Act of 2002.

Federal Information Processing Standards (FIPS):

   •   FIPS 200, Minimum Security Requirements for Federal Information and Information
       Systems
   •   FIPS 199, Standards for Security Categorization of Federal Information and Information
       Systems.

National Institute of Standards and Technology (NIST) Special Publications (SP):

   •   800-18, Revision (Rev.) 1, Guide for Developing Security Plans for Federal Information
       Systems
   •   800-30, Risk Management Guide for Information Technology Systems
   •   800-34, Rev. 1, Contingency Planning Guide for Federal Information Systems
   •   800-37, Rev. 1, Guide for Applying the Risk Management Framework to Federal
       Information Systems
   •   800-53, Rev. 3, Recommended Security Controls for Federal Information Systems and
       Organizations
   •   800-53A, Rev. 1, Guide for Assessing the Security Controls in Federal Information
       Systems and Organizations
   •   800-60, Rev. 1, Volume 1: Guide for Mapping Types of Information and Information
       Systems to Security Categories
   •   800-83, Guide to Malware Incident Prevention and Handling
   •   800-100, Information Security Handbook: A Guide for Managers.




                                              55
If you want to report or discuss confidentially any instance of
misconduct, fraud, waste, abuse, or mismanagement, please
          contact the Office of Inspector General.



                        Telephone:
             The Inspector General’s HOTLINE
                      (800) 452-8210



The deaf or hard of hearing, dial FRS (800) 877-8339 and give
          the Hotline number to the relay operator.



                           Web:
               http://www.cncsoig.gov/hotline



                          Or Write:
      Corporation for National and Community Service
                Office of Inspector General
                 1201 New York Ave, NW
                          Suite 830
                  Washington, DC 20525
                       (202) 606-9390
